<html>
<title> - THE EBOLA CRISIS: COORDINATION OF A MULTI- AGENCY RESPONSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   THE EBOLA CRISIS: COORDINATION OF A MULTI-
                              AGENCY RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 24, 2014

                               __________

                           Serial No. 113-163

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                            
                               _____________
                               
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
94-053 PDF                     WASHINGTON : 2015                       
                      
_______________________________________________________________________________________                      
                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781f0817381b0d0b0c101d1408561b171556">[email&#160;protected]</a>  
                   
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 24, 2014.................................     1

                               WITNESSES

The Hon. Michael Lumpkin, Assistant Secretary of Defense, Special 
  Operation/Low-Intensity Conflict, U.S. Department of Defense
    Oral Statement...............................................     7
    Written Statement............................................     9
The Hon. John Roth, Inspector General, U.S. Department of 
  Homeland Security
    Oral Statement...............................................    17
    Written Statement............................................    19
The Hon. Nicole Lurie, M.D., Assistant Secretary for Preparedness 
  and Response, U.S. Department of Health and Human Services
    Oral Statement...............................................    60
    Written Statement............................................    62
Ms. Deborah Burger, R.N., Co-President, National Nurses United
    Oral Statement...............................................    71
    Written Statement............................................    73
Mr. Rabih Torbay, Senior Vice President, International 
  Operations, International Medical Corps
    Oral Statement...............................................    80
    Written Statement............................................    82

                                APPENDIX

2014-10-16 Texas Health Resources Ebola Update...................   155
CRS HHS Annual Funding Preparedness and Response.................   157
2014-10-23 WSJ There's Plenty of Money to Fight Ebola............   158
FY2014 HHS Appropriations Overview...............................   161
2014-10-20 WP Beating Ebola Through a National Plan..............   164
2014-10-24 AAPS U.S. Public Health Response to the Ebola Outbreak   166


       THE EBOLA CRISIS: COORDINATION OF A MULTI-AGENCY RESPONSE

                              ----------                              


                        Friday, October 24, 2014

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. In Room 
2153, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, Cummings, Mica, Turner, 
McHenry, Jordan, Chaffetz, Walberg, Amash, Gowdy, Farenthold, 
Massie, Collins, Bentivolio, DeSantis, Maloney, Tierney, Lynch, 
Cooper, Connolly, Cartwright, Kelly, Davis, and Lujan Grisham.
    Staff present: Will L. Boyington, Deputy Press Secretary; 
Molly Boyl, Deputy General Counsel and Parliamentarian; 
Lawrence Brady, Staff Director; Ashley H. Callen, Deputy Chief 
Counsel for Investigations; Sharon Casey, Senior Assistant 
Clerk; Steve Castor, General Counsel; John Cuaderes, Deputy 
Staff Director; Adam P. Fromm, Director of Member Services and 
Committee Operations; Linda Good, Chief Clerk; Elizabeth 
Gorman, Professional Staff Member; Frederick Hill, Deputy Staff 
Director for Communications and Strategy; Christopher Hixon, 
Chief Counsel for Oversight; Caroline Ingram, Counsel; Michael 
R. Kiko, Legislative Assistant; Mark D. Marin, Deputy Staff 
Director for Oversight; Emily Martin, Counsel; Ashok M. Pinto, 
Chief Counsel, Investigations; Laura L. Rush, Deputy Chief 
Clerk; Jessica Seale, Digital Director; Andrew Shult, Deputy 
Digital Director; Katy Summerlin, Press Assistant; Rebecca 
Watkins, Communications Director; Tamara Alexander, Minority 
Counsel; Meghan Berroya, Minority Chief Investigative Counsel; 
Aryele Bradford, Minority Press Secretary; Courtney French, 
Minority Counsel; Jennifer Hoffman, Minority Communications 
Director; Una Lee, Minority Counsel; Juan McCullum, Minority 
Clerk; Suzanne Owen, Minority Legislative Director; and Dave 
Rapallo, Minority Staff Director.
    Chairman Issa. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    The Oversight Committee exists to secure two fundamental 
principles. First, Americans have a right to know that the 
money Washington takes from them is well spent. And, second, 
Americans deserve an efficient, effective government that works 
for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. It is our solemn responsibility to 
hold government accountable to the taxpayers. Taxpayers want to 
be safe. Taxpayers want to know that our government is 
prepared. In this case, we leave no stone unturned in ensuring 
today that America is planning for tomorrow.
    Beginning in March 2014, in the West African Nation of 
Guinea, the world first learned about yet another new outbreak 
of the Ebola virus. Due to poor detection, it is possible the 
outbreak started late last year. By August, Ebola had spread to 
Sierra Leone, Liberia, and Nigeria.
    According to the U.S. Center for Disease Control and 
Prevention, the 2014 Ebola epidemic is the largest in history 
and, sadly, the virus has claimed at least 4,000 lives to date.
    By the end of September, the CDC confirmed the diagnosis of 
the first travel-associated case of Ebola in the United States. 
The situation is rapidly developing and changing; and Americans 
are understandably worried, worried about their government's 
response to the outbreak and, in particular, the steps we are 
taking to contain the spread of Ebola.
    With the high fatality rates--as much as 70 percent--and no 
FDA approved vaccines or medicines, Ebola is a serious threat 
to public health around the world. An outbreak in an American 
city or any major city of the world could be very costly to 
contain and could have major economic impacts. Yesterday's news 
was a doctor in New York City tested positive for Ebola, and 
this is particularly distressing.
    There is certainly some good news to report on our effort 
to contain the outbreak. No new Ebola cases have been reported 
in Nigeria in 46 days. Over 40 people who came into contact 
with the Ebola patient, Thomas Eric Duncan, in Dallas have now 
gone through the 21-day monitoring period without demonstrating 
any symptoms. And perhaps that means that our preventive 
systems of those in contact is good, even though, as we will 
see today, not perfect.
    We have the world's most advanced healthcare system 
undeniably in America. We spend the most money to have that 
system. And as long--sorry--as long as our response is well 
coordinated and officials use common sense, there is an ability 
to contain this disease, but we are not out of the woods yet.
    Today we will examine efforts to coordinate Federal 
agencies tasked with responding to an Ebola outbreak. This 
examination follows a series of Statements and actions that 
have eroded public confidence in our response.
    An infected traveler from Liberia made it through the 
Department of Homeland Security screening and arrived at 
international travelers and into the Dallas/Fort Worth area. 
When the same individual exhibited clear signs of Ebola--
symptoms of Ebola, a hospital turned him back into the 
community and offered an evolving account of how this happened.
    Without evidence, the director of the CDC declared that a 
nurse at this hospital who became infected with Ebola must have 
contracted it through, ``a breach of protocol.'' Medicine is 
not done over the telephone. It is not done over the 
television. Medicine is, in fact, the business of looking at a 
patient, evaluating a patient, measuring a patient, and 
questioning a patient, not, in fact, guessing how someone 
became a patient.
    A separate nurse who contracted Ebola at that hospital was 
cleared by the CDC to board a commercial airline flight, even 
though she reported having fever and contact with the patient, 
Mr. Duncan.
    The news of that medical doctor returning from Guinea--the 
news that a medical doctor returning from Guinea now has tested 
positive for Ebola has raised even more questions about 
procedures and treating patients and risks to Americans 
responding with great courage and generosity from here to the 
infected areas.
    We need to know why there have been breakdowns and if our 
system for responding to such serious crisis is working 
properly. That was a line I was supposed to read. I think we 
all know that the system is not yet refined to where we could 
say it is working properly.
    How effective are our efforts at containing the disease in 
West Africa? Are the--are the training and equipment that 
frontline healthcare workers and military personnel received in 
the past or will receive in the future adequate? Isn't airport 
screening that went into effect 2 weeks ago reliable? Are 
government agencies doing everything they can do to foster the 
development of Ebola treatments? What threat does Ebola pose to 
international trade and America's--Americans traveling abroad?
    When a situation like this arises, government is supposed 
to rely on prior planning and rapid, effective response that 
can identify mistakes quickly and correct them. Congress has 
recognized and considered the threat of an outbreak on a 
bipartisan basis. The bumbling we have seen comes despite 
concerted efforts by Congress to ensure protocols and funding 
were in place to avoid the very mistakes we have already seen.
    President Obama's appointment of Ron Klain to serve as the 
Ebola czar sadly, in my opinion, shows the administration has, 
on one hand, recognized the missteps and, on the other hand, is 
not prepared to put a known leader in charge or, in fact, a 
medical professional in charge.
    That does not make it a political decision, but it makes it 
a decision in which we have to ask and we will ask today: Is 
the interagency coordination already in place and he is simply 
overseeing it or, in fact, are we expecting Mr. Klain to put 
together interagency coordination to show the leadership to 
make it happen, to sift through conflicting claims that science 
and medicine have already reached conclusions versus the 
reality that those conclusions, at least in several cases, have 
proven wrong.
    We did invite the President's new czar, Mr. Klain, to 
testify, and we are very disappointed that he was not able to. 
But we understand he has just started, and we do not expect 
that that would be repeated if there is a followup hearing.
    Let me just say, in my role in this committee and others, I 
have traveled to the World Health Organization's headquarters. 
I have seen them saying to us, as visitors, that pandemics are, 
in fact, already planned for. And although they talk about the 
inevitability of a pandemic, we have also invested, as 
Americans, billions of dollars to, in fact, be prepared for 
them.
    Let me just say before anyone pulls the trigger on either a 
political or denouncing medicine that, in fact, this is not a 
new problem. Nearly 100 years ago, in 1918-1919, the influenza 
pandemic known as the Spanish flu killed more people than any 
other outbreak of disease in history. It claimed at least 20 
million people--oh, thank you--around the world.
    In that pandemic, an American base, one that I was 
stationed at, Fort Riley, Kansas, proved to be the source of 
the first-known outbreak. The flu spread fast around the base 
and other bases and eventually worldwide. Famously, ``The Big 
Red One'' is well aware that not only was the outbreak 
critical, but, in fact, soldiers were put on ships and sent out 
from there further--not recognizing that, in fact, we were 
simply adding to the disease and the suffering.
    The Asian flu of 1957-'58, which originated in the Far 
East, spread to the U.S. and caused at least 70,000 deaths. The 
Hong Kong flu of 1968-'69 also spread to the United States and 
caused an estimated 34,000 deaths.
    It would be a major mistake to underestimate what Ebola 
could do to populations around the world, and any further 
fumbles, bumbles or missteps or relying on postulate, 
certainties told to us by people who, in fact, cannot defend 
how that certainty came to be and when it fails to be correct 
how they could have been so wrong, can no longer be tolerated.
    I look forward to hearing from this panel of witnesses in 
an effort not to solve a problem, but to take the problem 
appropriately seriously, recognize that what we don't know 
could kill us.
    With that, I recognize the ranking member for his opening 
Statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I 
thank you again and again for holding this hearing.
    I think this is the reason why we have an Oversight 
Committee, to address those problems that our Nation and, in 
this case, the world face.
    Yesterday, Dr. Craig Spencer, a physician working for 
Doctors Without Borders, tested positive for Ebola. We are 
still getting additional details.
    But based on information from New York and Federal 
officials so far, it appears that healthcare authorities have 
come a long way in preparing for Ebola since Thomas Duncan 
first walked into a Texas hospital last month. New York had 
been preparing for this possibility for weeks, and about 5,000 
healthcare workers were drilled on protocols and procedures 
just this past Wednesday.
    A special team with full protective gear transported Dr. 
Spencer to Bellevue Hospital, which is specifically designated 
to handle Ebola. They placed him directly into an isolation 
unit. They began treating him as soon as possible. And they 
started tracing his contacts immediately.
    As New York officials said last night, they had hoped they 
would not have to face an Ebola case, but they did. They were 
also realistic, and they worked diligently and professionally 
over the last month to prepare themselves for this day.
    There are many questions about this new case, but we cannot 
assume it will be the last. And I remind all of us this is our 
watch. Of course, we must continue to be vigilant, and we need 
to continually reevaluate our protocols and training procedures 
to protect our healthcare workers, many of whom are here today.
    And to those healthcare workers, on behalf of a grateful 
Congress and grateful Nation, I thank you for what you do every 
day.
    I want to express our thanks to Nina Pham and to Amber 
Vinson, the two nurses from Texas who contracted Ebola when 
they treated Mr. Duncan. By now, we have all seen their 
pictures, two brave young women who risked their lives to 
simply do their jobs and to feed their souls, just like nurses 
across this country, every single day, 24/7, 365 days a year. I 
understand that Ms. Pham's condition has been upgraded and Ms. 
Vinson has now been cleared of the virus. We thank them for 
their bravery and their commitment.
    This new case in New York should also demonstrate that we 
can no longer ignore the crisis in West Africa. We can no 
longer ignore it. Nearly 10,000 people have died from this 
disease or are battling with it as we speak, many in the most 
gruesome conditions imaginable.
    I firmly believe we have a fundamental, moral, and 
humanitarian obligation to address the crisis in Africa. We are 
the richest Nation in the world, and we have the resources and 
expertise to make the biggest difference. However, for those 
who may not agree that we have a moral obligation to help, they 
must understand that addressing the Ebola crisis in Africa is 
also in our self-interest as a Nation.
    Public health experts warn that, to protect Americans here 
at home, we need to address this outbreak at its source in 
Africa. The longer the outbreak continues, the more likely it 
will spread to the rest of the world, including more cases 
right here in the United States of America. And if we do not 
take strong action now, it will cause much, much more in the 
long run. The encouraging news is that healthcare experts know 
how to fight this disease. They know how to do that.
    This week the World Health Organization declared Nigeria 
and Senegal free of Ebola. This is a tremendous accomplishment 
that was achieved through a combination of early diagnosis, 
contract--contract tracing, infection control, and safe burial. 
But we still face grave challenges in Sierra Leone, Guinea, and 
Liberia where the public health infrastructure is deficient and 
new cases are increasing at an alarming rate.
    Last month the United Nations Security Council unanimously 
adopted a resolution declaring the Ebola outbreak ``a threat to 
international peace and security.'' The U.N. established a 
mission for Ebola emergency response. They set forth more than 
a dozen mission-critical actions and they provided a 6-month 
budget request for $988 million.
    However, they are hundreds of millions of dollars short. 
They definitely need funding for treatment beds, training for 
healthcare workers, and supplies to prevent infection. They 
need resources for things as basic as food and vehicles and 
fuel.
    As the head of the United Nations mission warned the 
Security Council just last week, ``We need to stop Ebola now or 
we face an entirely unprecedented situation for which we do not 
have a plan.''
    There have already been several congressional hearings on 
how to prepare ourselves here in the United States. So today I 
intend to ask our witnesses what they believe, in their expert 
views, are the most significant, concrete, and constructive 
steps our Nation can take to address this outbreak at its 
source.
    I am particularly grateful to Mr. Torbay from the 
International Medical Corps for agreeing to be here today to 
provide his on-the-ground assessment of what his group and 
others on the front lines need to stop the spread of Ebola.
    Mr. Torbay, I know you must feel great empathy for Dr. 
Spencer, who tested positive yesterday. I have asked my staff 
to place your testimony on our Website. It is some of the best 
testimony explaining what is going on in Africa, things that 
work, and I think the public should have an opportunity to read 
all 10 pages.
    He was--Mr. Spencer--Dr. Spencer was one of your 
compatriots, battling Ebola in West Africa, and I am sure his 
situation is one that all of your healthcare workers must fear 
on a daily basis. But the truth is that Dr. Spencer and your 
group and many others are doing one of the only things that 
will truly ensure the world will be free of Ebola. We need to 
support you as much as we urgently can, and we must do it 
forcefully. And we have to convince the rest of the world to do 
the same. Again, I say this is our watch.
    And to my fellow committee members and the members of this 
great Congress, it is not a time for us to move to common 
ground. We have no choice but to move to higher ground.
    And so, with that, Mr. Chairman, I look forward to the 
testimony today. And, with that, I yield back.
    Chairman Issa. I thank the gentleman.
    All members will have 7 days to submit opening Statements 
for the record.
    And, with that, we go to our panel of witnesses.
    The Honorable Michael Lumpkin is the Assistant Secretary of 
Defense for Special Operations and Low-Intensity Conflict at 
the United States Department of Defense.
    Major General James Lariviere--or--close enough--is the 
Deputy Director of Politico-Military Affairs in--let's see--
Affairs in Africa at the United States Department of Defense.
    The Honorable John Ross--sorry. I just got off a flight. I 
apologize. The Honorable John Roth is the Inspector General for 
the United States Department of Homeland Security.
    The Honorable Nicole Lurie is the Assistant Secretary for 
Preparedness and Response at the U.S. Department of Health and 
Human Services.
    Ms. Deborah Burger is the co-president of the National 
Nurses United.
    And Mr. Rabih Torbay is the Senior Vice President of 
International Operations at the International Medical Corps.
    Ladies and gentlemen, pursuant to the rules of the 
committee, would you please all rise, raise your right hands, 
and take the oath.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Chairman Issa. Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    As you all can see, we have a large panel. And I know, from 
the dais, there will be many questions. So I would ask that you 
realize that your entire opening Statements will be in the 
record and that you limit your oral testimony in your opening 
to 5 minutes.


                       WITNESS STATEMENTS

                STATEMENT OF HON. MICHAEL LUMPKIN

    Chairman Issa. With that, Mr. Lumpkin.
    Mr. Lumpkin. Chairman Issa, Ranking Member Cummings, and 
distinguished Members of the committee, thank you for the 
opportunity to be here this morning regarding the Department of 
Defense's role in the United States's comprehensive Ebola 
response effort, which are a national security priority in 
response to a global threat.
    Due to the U.S. military's unique capabilities, the 
Department has been called upon to provide interim solutions 
that will allow other departments and agencies the time 
necessary to expand and deploy their own capabilities. U.S. 
military efforts may also galvanize more robust and coordinated 
international effort, which is essential to contain this threat 
and to reduce human suffering.
    Before addressing the specific elements of DOD's Ebola 
response efforts, I would like to share my observations of the 
evolving crisis and our increasing response. After visiting 
Liberia, which I returned from several weeks ago, I was left 
with a number of overarching impressions that are shaping the 
Department's role supporting USAID:
    First, our government has deployed a topnotch team 
experienced in dealing with disasters and humanitarian 
assistance.
    Second, the Liberian Government is doing what it can with 
its very limited resources.
    Third, the international response is increasing regionally 
due to our government's response efforts.
    Fourth, I traveled to the region thinking we faced a 
healthcare crisis with a logistics challenge. In reality, what 
I found was that we face a logistics crisis focused on a 
healthcare challenge.
    Fifth, speed and scaled response matter. Incremental 
responses will be outpaced by a rapidly growing epidemic.
    Finally, the Ebola epidemic we face is truly a national 
security issue. Absent our government's coordinated response in 
West Africa, the virus's increasing spread brings the risk of 
more cases here in the United States.
    And now I would like to turn to DOD's role of our overall 
whole-of-government response in West Africa.
    In mid-September, President Obama ordered the Department to 
undertake military operations in West Africa in direct support 
of USAID. Secretary Hagel directed that U.S. military forces 
undertake a twofold mission: First, support USAID in the 
overall U.S. Government efforts and, second, respond to 
Department of State request for security or evacuation 
assistance if required.
    Direct patient care of Ebola-exposed patients in West 
Africa is not part of DOD's mission. Secretary Hagel approved 
unique military capabilities falling under four lines of 
effort: command and control, logistics support, engineering 
support, and training.
    In the last 6 weeks, DOD has undertaken a number of 
synchronized activities in support of these line of efforts, to 
include designating a named operation, Operation United 
Assistance; establishing an intermediate staging base in Dakar, 
Senegal; providing strategic and tactical airlift; constructing 
a 25-bed hospital in Monrovia; constructing up to 17 Ebola 
treatment units, also known as ETUs, in Liberia; and preparing 
to train local and third-country healthcare support personnel, 
enabling them to serve as the first responders in these Ebola 
treatment units throughout Liberia.
    I would like to reiterate that the U.S. military personnel 
will not provide direct care to Ebola patients in West Africa.
    In addition to the activities of Operation United 
Assistance, the Department continues two enduring programs in 
the region: Operation Onward Liberty, partners with armed 
forces of Liberia to improve their professionalism and 
capabilities; and we are expanding the regional efforts of the 
Department's cooperative biological enhancement program to 
provide robust enhancements to biosafety, biosecurity, and 
biosurveillance systems in West Africa.
    In all these circumstances, the protection of our personnel 
and the prevention of any additional transmission of the 
disease remain paramount planning factors. There is no higher 
operational priority than protecting our Department of Defense 
personnel.
    In conclusion, we have a comprehensive U.S. Government 
response and, increasingly, a coordinated international 
response. The Department of Defense's interim measures are an 
essential element of the U.S. response to lay the necessary 
groundwork for the international community to mobilize its 
response capabilities. Now it is the time to devote appropriate 
U.S. resources necessary to contain the threat and to establish 
the processes for better future responses.
    With that, I would like to introduce my colleague from The 
Joint Staff, Major General Lariviere. And we look ready to 
answer your questions and appreciate the opportunity to be 
here.
    [The prepared Statement of Mr. Lumpkin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Issa. Thank you.
    And I understand, General, you do not have a separate 
opening Statement.
    General Lariviere. No, sir, I do not. But I stand ready to 
answer any questions you might have.
    Chairman Issa. Thank you.
    Mr. Roth.

                   STATEMENT OF HON. JOHN ROTH


    Mr. Roth. Good morning, Chairman Issa, Ranking Member 
Cummings, and Members of the committee. Thank you for inviting 
me to testify about DHS's management of pandemic supplies.
    DHS must have the ability to continue its operations in the 
event of a pandemic. In 2006, Congress appropriated $47 million 
in supplemental funding to DHS for them to plan, train, and 
prepare for potential pandemic.
    We recently conducted an audit of those efforts, focusing 
on the Department's preparations to continue operations in 
achieving its mission should a pandemic occur. The report of 
our audit is attached to my written testimony that I have 
submitted to this committee.
    In short, our audit concluded that DHS mismanaged their 
program in three ways. First, we found that DHS did not 
adequately conduct a needs assessment before purchasing 
protective equipment and antiviral drugs.
    As a result, we could not determine the basis for DHS's 
decisions regarding how much or what types of pandemic supplies 
to purchase, store, or distribute. As a result, DHS may have 
too much of some equipment and too little of others.
    For example, we found that DHS has a stockpile of about 
350,000 white coverall suits and 16 million surgical masks, but 
hasn't been able to demonstrate how either fits into their 
pandemic preparedness plans. It has a significant quantity of 
antiviral drugs. But, again, without a full understanding of 
the Department's needs in the event of a pandemic, we have no 
assurance that the quantity of drugs will be appropriate.
    Second, DHS purchased much of the equipment and drugs 
without thinking through how these supplies would need to be 
replaced. The material DHS has purchased has a finite shelf 
life.
    For example, TSA's stock of pandemic protective equipment 
includes about 200,000 respirators that are beyond the 5-year 
usability date guaranteed by the manufacturer. In fact, the 
Department believes that their entire stockpile of personal 
protective equipment will not be usable after 2015.
    Likewise, the antiviral drugs DHS purchased are nearing the 
end of their effective life. DHS is attempting to extend that 
shelf life of these drugs through an FDA testing program, but 
the results of that are not guaranteed.
    Third, DHS did not manage its inventory of drugs or 
equipment. As a result, DHS did not readily know how much 
protective equipment and drugs it had on hand or where it was 
being stored. Drugs and equipment have gone missing. And, 
conversely, our audit has found drugs in the DHS inventory that 
the Department thought had been destroyed.
    We visited multiple sites and found drugs that were not 
being stored in a temperature-controlled environment. Because 
DHS cannot be assured that they were properly stored, they are 
in the process of recalling a significant quantity of them 
because they may not be safe or effective.
    We made 11 separate recommendations. DHS has concurred with 
all of them. One of those recommendations has been fully 
implemented, and the Department is taking action to implement 
the remaining ten recommendations. We will continue to keep 
this committee informed about the Department's progress.
    Mr. Chairman, that concludes my prepared Statement. I 
welcome any questions.
    [The prepared Statement of Mr. Roth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Issa. Dr. Lurie.


              STATEMENT OF HON. NICOLE LURIE, M.D.


    Dr. Lurie. Good morning, Chairman Issa, and Ranking Member 
Cummings, and other distinguished Members of the committee.
    I am Dr. Nicole Lurie, the Assistant Secretary for 
preparedness and response at the U.S. Department of Health and 
Human Services. I am also a primary care doctor.
    I appreciate the opportunity to talk with you today about 
the steps that HHS and other agencies have taken since the 
Ebola outbreak began in West Africa. We are working 24/7 to 
control the epidemic there and to ensure that we are prepared 
to prevent and curtail the spread of disease here at home.
    Thanks to the foresight of the Congress, the leadership of 
this and prior administrations, the dedicated work of HHS and 
the interagency whole-of-government approach we are taking, we 
are better positioned than ever before to respond to Ebola as 
well as a range of other threats that may affect this country.
    I serve as the Assistant Secretary. I serve as the 
principal advisor to the Secretary on all matters related to 
public health and medical preparedness in response to 
emergencies. Since my confirmation in 2009, we have worked hard 
to ensure that we have the tools necessary to prepare for and 
respond to any disaster with public health consequences.
    I have led the modernization of the Medical Countermeasure 
Enterprise, created new opportunities for coordination among 
State and local public health and healthcare systems, and 
strengthened our ability to make better decisions before, 
during, and after an emergency. Our all-hazards approach allows 
us to be flexible and nimble in response to known and unknown 
threats.
    As you know, four cases of Ebola have been detected in the 
United States. Our hearts go out to the family of Mr. Duncan, 
the nurses who have been infected, as well as the physician in 
New York. We are pleased that the nurses are doing so well and 
wish them and the physician a speedy recovery.
    We are extremely serious in our focus on protecting 
America's health security. The best way to do that is to end 
Ebola epidemic in West Africa. At the same time, we are 
expediting the development of medical countermeasures and 
preparing our systems to deal with any potential cases in this 
country.
    So, not long after this epidemic began, I convened the 
Federal medical countermeasures stakeholders to see what could 
be accomplished as quickly as possible. Thanks to past 
investments, we have leveraged U.S. Government-wide assets to 
urgently speed the development and testing of vaccines and 
therapeutics for Ebola. These advances are allowing us to 
create Ebola countermeasures in record time so that we will 
have products to use as soon as we have the necessary proof of 
efficacy.
    Our strategic investments in the countermeasure 
infrastructure, including our Centers for Innovation in 
Advanced Development and Manufacturing established in 2012 and 
newly established Fill Finish Manufacturing Network, will be 
used to get Ebola vaccines and therapeutics into vials for use. 
We are also leveraging our strong, ongoing relationships with 
industry and public-private sector partners to scale up vaccine 
manufacturing.
    In addition, our public health and healthcare systems must 
be prepared to deliver safe care at a moment's notice. 
Investments in the hospital preparedness program and the public 
health emergency preparedness program have meant that 
healthcare systems and State and local public health 
departments are prepared to respond to public health 
emergencies.
    Since the epidemic began, we have been using these programs 
to educate healthcare systems stakeholders and ensure 
surveillance in laboratory capacities were in place. We have 
launched a very aggressive national outreach and education 
program to promote the safe and effective detection, isolation, 
treatment of Ebola patients.
    The system we now have in place is based on changes and 
lessons learned from each emergency, including those I have 
confronted, as the Assistant Secretary.
    Based on the first U.S. Cases, HHS has already made 
adjustments to minimize the spread of Ebola. These include 
tightened guidance for the use of personal protective 
equipment, an expanded aggressive national education campaign 
for healthcare workers, and screening and active monitoring of 
passengers entering the United States now funneled through five 
airports.
    We have been working collaboratively with our interagency 
partners, including on transport of contaminated waste with the 
Department of Transportation, medical evacuation with the 
Department of State, deployment of military personnel with the 
Department of Defense, and worker and workplace safety with 
OSHA and NIOSH.
    Mr. Chairman and Members of the committee, I understand why 
you and yours constituents are concerned. We take domestic 
preparedness very seriously. Our top priority is protecting the 
health of Americans.
    I can assure you that my team, the Department and our 
partners have been working and continue to work long hours to 
prepare our Nation for threats like this. With lessons learned 
from this new challenge, we are making efficient use of the 
investments provided and we have made tangible, meaningful 
progress since you first created this office in 2006. As a 
result, HHS has been able to provide crucial health and medical 
support to our States and communities.
    I thank you again for this opportunity to address these 
issues and welcome your questions.
    [The prepared Statement of Dr. Lurie follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Issa. Ms. Burger.


                STATEMENT OF DEBORAH BURGER, R.N.


    Ms. Burger. Thank you, Mr. Chairman and Members of the 
committee. I am Deborah Burger, a registered nurse and----
    Chairman Issa. Could you pull the mic just slightly closer. 
Thank you.
    Ms. Burger. Thank you.
    --and co-president of the National Nurses United, 
representing 190,000 members in the largest organization of 
nurses in the United States.
    The Ebola pandemic and the exposure of healthcare workers 
to Ebola in Texas and the real threat that it could occur 
elsewhere in the U.S. represent a clear and present danger to 
public health.
    Every R.N. Who works in a healthcare facility could be Nina 
Pham or Amber Vinson, both of whom contracted Ebola while 
treating Thomas Eric Duncan at Texas Presbyterian Hospital in 
Dallas. One patient diagnosed and dead in this country. Two 
nurses infected so far.
    And our survey of over 3,000 nurses from over 1,000 
hospitals in every State, D.C., and the Virgin Islands reveals 
85 percent of the nurses say they are not adequately trained 
and the level of preparation for Ebola in our facilities is 
insufficient.
    68 percent of R.N.s still say they have not--their hospital 
has not communicated any policy for admission of a potential 
Ebola patient. 84 percent still say their hospitals have not 
provided Ebola education with the opportunity to interact and 
ask questions.
    44 percent say their hospitals lack sufficient supplies of 
eye protection now. 46 percent say there are insufficient 
supplies of fluid-resistant impermeable gowns in their 
hospital. 41 percent say their hospitals do not have plans to 
equip isolation rooms.
    Initially, the nurses who interacted with Mr. Duncan wore 
non-impermeable gowns, three pairs of gloves with no taping 
around the wrists, surgical masks with the option of N95s and 
face shields, leaving their necks exposed. Two of them became 
infected. This is what happens when guidelines are inefficient 
and voluntary.
    The new CDC guideline that protective equipment leave no 
skin exposed is a direct testament to the courage of Dallas 
whistleblower Briana Aguirre who first spoke to us.
    We have called on President Obama to invoke his executive 
authority and urged Congress legislatively to mandate uniform 
optimal national standards.
    These include full-body HazMat suits that meet the ASTM 
F1670 standard for blood penetration and the ASTM F1671 
standard for viral penetration, which leaves no skin exposed or 
unprotected; NIOSH-approved air-powered purifying respirators 
with an assigned protection factor of at least 50 or higher 
standard as appropriate; at least two direct-care R.N.s for 
each Ebola patient and the additional--and no additional 
patient care assignment; continuous onsite interactive hands-on 
teaching with the R.N.s and updates responsive to the changing 
nature of the disease.
    The precautionary principle must be utilized when 
developing public health policy designed to protect patients, 
the public, nurses, and all healthcare workers who may be 
exposed to potentially infectious patients.
    Lest we forget the risk of exposure to the population at 
large starts with the frontline caregivers. It does not end 
there. As we have seen with school closures in Ohio and Texas 
and the quarantining of airline passengers, improper protection 
and inadequate protocols in hospitals can lead to public 
exposure.
    The response to Ebola from U.S. hospitals and governmental 
agencies has been dangerously inconsistent and inadequate. The 
lack of mandates and shifting guidelines from agencies and 
reliance on voluntary compliance has left caregivers uncertain, 
severely unprepared, and vulnerable to infection.
    Our experience with U.S. hospitals is they will not act on 
their own to secure the highest standards of protection without 
a specific directive from our Federal authorities by an act of 
Congress or potential Presidential executive order.
    The new CDC guidelines represent progress with improved 
standards for training, as we have been demanding for months. 
The CDC guidelines are still unclear on the most effective 
protective equipment, specifically allowing hospitals to select 
protective equipment based on availability and other factors.
    We are your first line of defense. No nation would ever 
contemplate sending soldiers into the battlefield without armor 
and weapons. Give us the tools we need. All we ask from 
President Obama and Congress is not one more infected nurse. 
Thank you.
    [The prepared Statement of Ms. Burger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
         
    Chairman Issa. Thank you.
    Mr. Torbay.


                    STATEMENT OF RABIH TORBAY


    Mr. Torbay. Chairman Issa, Ranking Member Cummings, and 
distinguished Members of the committee, on behalf of 
International Medical Corps, one of the few agencies in the 
world to be treating Ebola patients, I would like to thank you 
for inviting me to testify today and for your leadership in 
convening this critically important hearing. We would also like 
to express our appreciation to the U.S. Government for their 
pivotal action and generous support for the response.
    Our response to the Ebola outbreak has been robust. By the 
end of November, I anticipate we will have a total of about 800 
staff in Liberia and Sierra Leone. Approximately 70 of these 
will be ex-patriots. International Medical Corps has been 
operational in West Africa since 1999.
    Our Ebola response started in late June with community 
education and sensitization in Sierra Leone. In late July and 
after we realized the epidemic has reached out-of-control 
levels, we deployed our emergency response teams to both Sierra 
Leone and Liberia and decided to get involved in treatment of 
Ebola cases.
    When our emergency teams arrived in Liberia in August, what 
we found on the ground confirmed that urgent action was 
required. In a few short months, fallout from the Ebola 
outbreak had brought the country's already fragile healthcare 
system to the brink of collapse.
    Many were dying. Most were afraid. Previously busy 
hospitals and clinics were empty, with both staff and potential 
patients too frightened to go there for the fear of being 
infected with the virus.
    Rather than risk infection, mothers shunned lifesaving 
vaccinations for their children and, if their child became ill, 
even seriously ill, all too many believed the safer option was 
not to seek treatment at all.
    With funding from USAID, we opened up our first 70-bed 
Ebola treatment unit in Bomi County in Liberia as we admitted 
our first patients on September 15. Currently, we have 53 beds 
occupied and staffed by a team of 17 ex-patriots and 161 
Liberian nationals. To date, this issue remains one of just two 
in Liberia operating outside of Monrovia.
    Within the next 6 weeks, we expect to open three additional 
Ebola treatment units, one in Liberia in Margibi County and two 
in Sierra Leone's Northern Province, specifically in Lunsar and 
Makeni.
    Within the next 3 weeks, we expect to open a training 
center in Bung County to train other NGO staff on case 
management protocols. In this center, which will be adjacent to 
our Ebola treatment unit, we will offer a fast-paced, 7-to 12-
day training for those that will be involved in the treatment 
of Ebola patients.
    We will open a similar center in Sierra Leone in the near 
future as well. Such hands-on training is the key to protecting 
healthcare workers who must operate in an environment where all 
know the Ebola virus is present. Strong guidelines and 
regulations are important, but they must be combined with 
hands-on training to be truly effective.
    Mr. Chairman, I would like to briefly share some of what we 
know works. This will help highlight several key areas to focus 
as well as what is needed going forward.
    First and foremost, we need to contain the disease at its 
source. For that to happen, we have learned that several 
factors need to be in place.
    This includes having operational Ebola treatment units that 
are staffed by well-trained health professionals, a robust 
referral system between community care centers and Ebola 
treatment units as well as between Ebola treatment units 
themselves to take advantage of available bed capacity in 
certain areas.
    Limiting the spread of the virus in the community is 
essential to containment plan. Therefore, the focus on 
community sensitization, including education, awareness, and 
outreach are critical. Finally, contact tracing and burial 
teams are critical to limit transmission.
    I would like to conclude by offering some recommendations 
to the committee for consideration. More detailed 
recommendations can be found in our written testimony.
    First, one of the most critical lessons learned from this 
response has been the importance of having the human resources 
ready and prepared to address an outbreak of infectious 
disease.
    Cadres of healthcare workers need to be well trained and 
supported to staff the treatment units and care centers in the 
affected countries, as well as to prepare other countries in 
the region for any potential future outbreaks.
    Second, ensure availability of appropriate personal 
protective equipment.
    Third, ensure clear protocols for evacuating healthcare 
workers. This is essential for our recruitment, training, and 
retaining of health staff in Liberia and Sierra Leone.
    Fourth, open air space to and from the Ebola-affected 
countries must be maintained. The growing restrictions on 
travel to and from West Africa will only isolate the affected 
countries further, compromise the supply chain, and inhibit 
efforts to recruit qualified staff. These factors will further 
enable the severe outbreak to continue.
    Fifth, we need to accelerate and support the production of 
vaccines and innovative technologies.
    Finally, in developing and implementing recovery efforts 
and a long-term strategy, we must focus on building stronger 
healthcare systems in the region.
    Mr. Chairman, there is no doubt that we will stop this 
outbreak and the death and, if done correctly, build the tools 
to prevent another outbreak of such proportions. International 
Medical Corps looks forward to working with you to make this 
happen.
    Once again, thank you, Mr. Chairman and Ranking Member 
Cummings, for allowing me to present this testimony. I would be 
glad to answer any questions the committee might have.
    [The prepared Statement of Mr. Torbay follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
          
    Chairman Issa. Thank you. I would like to thank all our 
witnesses.
    I am going to withhold my questioning at this time and go--
let Mr. Turner go first.
    The gentleman from Ohio is recognized for 5 minutes.
    Mr. Turner. Mr. Chairman, I greatly appreciate that. I am 
under a time constraint, having to return back to my district, 
and I greatly appreciate the Chairman doing that.
    Tuesday I had the opportunity to talk to Secretary Hagel 
about the Ebola mission. And I believe that he takes this very 
seriously and he is very concerned both about the effects on 
our men and women in uniform and, also, on the effects of 
protecting the American public.
    I am very concerned about the protocols of protecting the 
American public. And since I only get one question, my question 
is going to be about that, although I, too, am very concerned, 
as all the American public is, about the protection of our men 
and women in uniform.
    I am very skeptical of the DOD protocols, and I think the 
American public is very skeptical. We have basically two 
threats: one, Ebola coming here; or two, individuals who have 
been exposed to Ebola falling ill to Ebola.
    We have had four cases. Two came here. Two are the result 
of people being exposed to Ebola here and then falling ill. 
Three were healthcare providers.
    Now, the American public is very concerned that individuals 
who have been exposed to the Ebola virus have had significant 
public access after being exposed. This is during a period 
while they were falling ill to Ebola.
    Now, on October 10, Ebola came to visit Ohio. Amber Vinson 
traveled from Dallas, Texas, to Cleveland. While she was in 
Cleveland, she visited local businesses. Of course, she flew on 
a flight there. Almost 300 people had contact with her while 
she was falling ill to Ebola.
    Fortunately, Ohio doesn't have a report at this time of a 
case of Ebola. But on October 20, the entire Ohio congressional 
delegation, on a bipartisan basis, sent a letter to the CDC 
challenging their protocols with respect to people who have 
been known to have been exposed to Ebola.
    Now, we all know the stories: trying on wedding dresses, 
flying, going on a cruise, bowling, riding the subway. Although 
some of these issues are personal responsibility, they do go to 
the issue of protocols.
    And if you look at the October 10 Department of Defense 
guidelines, in paragraph 4, it says that a commander has 
authority, which means they may--they don't have to--quarantine 
someone up to 10 days if they are concerned about an individual 
who has been exposed. Now, we all know that the doctor in New 
York fell ill, apparently, after 11 days.
    And then it goes on to say that no known exposure--now, it 
doesn't mean they weren't exposed--it means no known exposure--
that there is a 21-day monitoring period, but it suggests that 
the individuals return to routine daily activities. Well, those 
routine daily activities would include going on cruises, 
flying, wearing wedding dresses, bowling, and riding the 
subway.
    So I think I am very concerned, as the American public is, 
as to the multiplier effect of the contacts that could occur in 
the public. And as we are learning, as we have looked at, in 
light of what has happened, I believe that both the CDC rules 
and perhaps the DOD guidance should be revised.
    General, in light of what we now know and what we are 
seeing and our concerns of the multiplier effect, again, of 
three healthcare providers who had significant public contact 
while falling ill to the Ebola virus, do you believe that this 
October 10 DOD guidance should be revised?
    And, Mr. Lumpkin, I would like your answer, too.
    Mr. Lumpkin. I think the first thing I would like to say is 
to make sure--as I mentioned in my opening Statement, is that 
we at DOD in West Africa are not doing direct patient care. So 
our operations in support of USAID are focused on those lines 
of effort of the command and control, the logistics, the----
    Mr. Turner. But, Mr. Lumpkin, as you know, that does not 
mean that no one is going to be exposed to the virus. I mean, I 
understand what you are saying about the distinction between 
healthcare providers and non-healthcare providers. But the 
gentleman who flew here first, Patient 1 in the United States, 
was not a healthcare provider either.
    Mr. Lumpkin. Very true.
    But I want to make sure you understand that, because we are 
not--we have different categories of risk. And I would like to 
turn it over to my Joint Staff colleague here to explain the 
risk categories and the mitigation strategies for each one of 
them.
    General Lariviere. Mr. Turner, thank you for the question.
    The protocols that we have put in place, we think, exceed 
the CDC standard. As you mentioned, we will be testing 
personnel twice a day while they are deployed, take their 
temperature, and to ensure that they--that, if they were 
exposed and they did become infected, we could isolate them 
effectively.
    The 0-to 10-day timeline that you discussed is the timeline 
that will take place in country. Commanders will have the 
authority to remove their personnel,----
    Mr. Turner. But, General, as we already know from the 
doctor in New York, he indicated, if the news reports are 
correct, that his symptoms occurred at 11 days.
    General Lariviere. Yes, sir.
    Mr. Turner. So is it you are 10 days too short?
    General Lariviere. Yes, sir. Well, the 10 days were in 
country. The 21 days can't start until they are actually out of 
the affected area. So the 21-day monitoring period will take 
place----
    Mr. Turner. Which means they could be traveling on day 11 
and no longer isolated?
    General Lariviere. They could be traveling on day 11, but 
they will--the 21----
    Mr. Turner. Which would result in additional exposure?
    General Lariviere. No, sir. We will try to limit their 
exposure prior to their departure. But the 21-day timeline 
won't start until they are back in the United States----
    Mr. Turner. Well, my time is up.
    But I want to indicate I am highly skeptical. The American 
public is worried. I believe these need to be revised. The Ohio 
delegation sent to CDC, they believe theirs need to be revised.
    The American public is concerned that people who are 
exposed are having too much contact with the American public 
and raising the risk to the United States citizens.
    Thank you, Mr. Chairman. I appreciate it.
    Chairman Issa. Thank you.
    And, General, I just want to make sure, as the ranking 
member--I just want to make sure that you are clear in what you 
are saying and what Mr. Turner was asking.
    If someone like the doctor in New York who just tested 
positive is, in fact, held for 10 days, leaves on a commercial 
airplane--if one of your gunnery sergeants leaves on an 
airplane, arrives in New York and on the 11th or 12th day goes 
positive, your 10 days will have done nothing and you won't get 
that opportunity to have them outside--you know, in other 
words, the quarantine of 21 days after you get back doesn't 
matter.
    And I think that is what Mr. Turner was very much asking, 
is the example he gave of a doctor from just yesterday tells, I 
think, all of us that 10 days isn't long enough if that person 
then travels on a commercial airplane where they then can 
infect the passengers on the airplane.
    Is that your question, Mr. Turner?
    Mr. Turner. Correct, Mr. Chairman.
    Chairman Issa. Thank you.
    Do you have any further clarification?
    General Lariviere. Perhaps I am--perhaps I am not being 
clear. The 10 days is to attempt to limit their possibility for 
exposure while they are in country in Liberia.
    They will then be screened for temperature and possible 
exposure prior to getting on a government contract or U.S. 
military aircraft to be returned to their unit back in the 
United States.
    Once they have flown back to their unit in the United 
States, they will be given a 21-day monitoring period where 
they will be required to come into the unit twice a day for 
medical checks by U.S. military medical personnel at their unit 
where they will have their temperature taken and looked in the 
eye by a medical professional to see how they are doing. That 
will take place for 21 days back--back in the rear area to 
ensure they that do not become infected.
    They will never be more than 12 hours from possibly spiking 
a fever. If they did exhibit symptoms and spike a fever once 
they were back in the United States during one of those medical 
checks, they would immediately be taken to a treatment facility 
and begin the isolation process.
    Chairman Issa. Mr. Cummings.
    Mr. Cummings. Yes.
    Mr. Torbay, I want you to remember what was just Stated and 
I want you to comment on that in a minute. I am going to--I am 
really curious as to what you--you deal with this every day. 
So--what you think of it. But I want to go through some other 
things first.
    I know your organization is incredibly busy, but your input 
is very crucial. In addition to your very detailed written 
Statement, you provided some pictures, and I am hoping you can 
explain what we are seeing.
    First, I believe this picture is an Ebola treatment center. 
Can you briefly describe what we have seen here. And where is 
that?
    Mr. Torbay. Absolutely. This is in Bomi County in our Ebola 
treatment unit. This is the isolation unit. What you see, the 
two health workers in yellow suits with a hood and a mask are 
actually inside the restricted area. Nobody is allowed to go in 
there without full personal protection, equipment, and 
training.
    And outside they are taking notes. There is a supervisor to 
make sure that proper protocols are taking place as they are 
entering the Ebola treatment unit.
    Mr. Cummings. And, in your testimony, you said you need 
about 840 of these suits every week. You also said this, ``The 
current demand far exceeds the supply. There are currently two 
main manufacturers for our acceptable overalls, and they are 
producing at full capacity.'' You go on to say, We estimate 
that at the current stage, they will meet around 35 percent of 
the demand. Is that right?
    Mr. Torbay. That's correct.
    Mr. Cummings. And so what can we do to help provide more 
protective gear?
    Mr. Torbay. Absolutely. First of all, I would like to 
clarify that it is 840 PPEs for a 60-bed hospital. That is for 
one Ebola treatment unit; it is not for the entire operation. 
What we need to do is encourage those manufacturers to increase 
the supply line and make sure that anybody who has the capacity 
or has some of those PPEs in stock to release them, because a 
lot of them are in stock in areas that are not actually 
endemic, and they need to be released for those that are 
treating patients.
    Mr. Cummings. Now going back, let me go to another picture.
    Mr. Torbay, in this picture there is a little truck in the 
background, and it has some kind of tarp on a flatbed. Can you 
tell us what the truck is used for?
    Mr. Torbay. This is a makeshift ambulance. There is a lack 
of ambulances in Liberia. So we took a flatbed truck, we put a 
mattress in it, and we covered it with a tarp. And this is what 
we take to get patients from the community to the Ebola 
treatment unit.
    Mr. Cummings. In your written Statement. You said, ``Put 
simply, we need three things, people, commodities, and money. 
By commodities, I mean everything from PPEs, to disinfectant, 
to vehicles for transportation, mattresses and beds and 
clothing.'' So is this what you are talking about in additional 
vehicles to transport patients? Is that what you are talking 
about?
    Mr. Torbay. Absolutely. To transport patients. Additional 
vehicles for burial teams. Ambulances that could go out to the 
communities, to the community care centers and transfer 
patients to the Ebola treatment unit for treatment.
    Mr. Cummings. Now let me go to the next picture. This is 
not a picture you provided, but one from a hospital in Sierra 
Leone. There are people on the floor. There is fluid 
everywhere. And there is a team of people in full protective 
suits that appear to be removing a dead body. Can you please 
explain why it is so important to have proper burial 
procedures?
    Mr. Torbay. Absolutely. The viral load in a dead body is at 
its highest. This is when it is most contagious. So it is 
extremely important to have proper burial procedures. The way 
we go about it, when a person succumbs to the disease, we spray 
them with disinfectant, chlorinated water. We put them in a 
body bag; we spray them again. We spray the body bag again. We 
put them in a second body bag', we spray the body bag again. 
And a third body bag, and we spray them before we transfer them 
to the burial ground. So it is extremely important that proper 
burial procedures are followed all the time.
    Mr. Cummings. And would more resources help with that 
process that you just described?
    Mr. Torbay. Absolutely, sir.
    Mr. Cummings. And how so?
    Mr. Torbay. We need more burial teams. The burial teams on 
the ground in the three countries are not enough. They possibly 
contribute probably a third of the need. We need body bags. We 
need training for the burial teams, as well as vehicles for 
transportation of dead bodies.
    Mr. Cummings. Mr. Chairman, with the committee's 
indulgence, I would like to play a very short video clip, 
showing how the final stage of this process, the burials, is 
currently being handled.
    [Video shown.]
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Torbay, right now there are a lot of people watching 
this hearing. And many of them do not know the extent of the 
crisis in West Africa. They do not know the urgency of the 
need. You have a microphone in front of you. You have an 
opportunity to reach millions of people this morning. If there 
is one thing you want to tell the American people, what would 
that be?
    Mr. Torbay. Thank you, Mr. Cummings, for giving me this 
opportunity. We need to deal with the Ebola virus at its source 
in West Africa. Steps can be taken in order to deal with this. 
We need to immediately increase treatment capacity by deploying 
and training proper health personnel. We need commodities, as 
we discussed, PPEs, ambulances. We need financial resources. We 
need further containment at the community level as well. It is 
not just about treatment; we need to contain it at the 
community level. This is a global issue. It is not just a West 
Africa issue. We all need to work together as one team to 
tackle this deadly disease and put an end to this outbreak.
    Once we do so, we need to continue the investment in 
rebuilding the health care system in West Africa, as well as 
preparedness in other countries. We need to make sure that this 
outbreak doesn't reoccur. The U.S. has and is playing a pivotal 
role. I am proud to say that the U.S. has led the way and 
continues to answer the call, and other countries are following 
the lead of the U.S.
    Mr. Cummings. Just one last thing. Mr. Turner asked, I 
thought, a great question. And the chairman tried to get some 
clarification about military folks. What was your reaction to--
you deal with this disease. We have got health care workers in 
the back of you, and the American people are looking on. I 
mean, do you feel that that is an appropriate way to address 
this? And should the American people be concerned? I mean, we 
have got people going over to Africa to try to help out.
    Mr. Torbay. I would like to clarify one thing. If there are 
no symptoms, there is no transmission. That is the first thing. 
Unless the patient develops symptoms, the patient cannot 
transmit the Ebola virus. So monitoring temperature is 
critical, because as long as the patient is asymptomatic, there 
is no risk of transmitting the disease. We follow a slightly 
different protocol, but it is very much in line with what the 
General said, as well as with the CDC.
    There is no risk, which means somebody who hasn't been 
exposed to the Ebola virus; he hasn't been in contact with 
somebody--in fact knowingly infected with Ebola. We bring them 
on a commercial airline. They monitor their temperature for 21 
days twice a day. We contact them to make sure it happens.
    There is low risk or some risk. And those people, we do not 
allow them to actually travel on commercial airlines. We ask 
them to stay out of the risk area, even in West Africa, but out 
of the risk area for 21 days to make sure that actually they 
have no symptoms before we allow them back.
    And there is high risk. Those are people that have 
knowingly been exposed to the virus. Those will be quarantined 
and monitored. And the minute they develop symptoms, they will 
be tested for Ebola and admitted.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    And I want to followup on the ranking member at that point. 
So if I heard you correctly, the fact is the 10-day waiting 
period has absolutely no value, that, in fact, the only real 
question, the only real way to ensure that someone is not 
contagious or not going to become contagious is for them to be 
outside the risk area for 21 days, not exposed to other people 
who exhibit symptoms for 21 days. Is that correct?
    Mr. Torbay. I think where the 10 days comes from is that 
the majority of symptoms appear within 7 to 10 days after----
    Chairman Issa. Or 11 in the case of the gentleman from New 
York.
    Mr. Torbay. Absolutely. I said majority. There are 
exceptions. The incubation period is 2 to 21 days. That is why 
it is important to wait for 21 days after the last known 
exposure to the virus.
    Chairman Issa. Again, known exposure. That is correct.
    Now, General, you are going to be operating some seven 
labs. You said you are not doing medicine, but anyone who works 
in those labs, takes materials out of those labs, has secondary 
exposure to, if you will, liquids and so on, in fact, is in a 
direct risk, aren't they? The testing labs, because we have 
already had that in Dallas, is, in fact, a point of 
transmission. It's not just the individual, but, in fact, the 
materials that come out of that individual. Isn't that correct?
    General Lariviere. So the military personnel who are 
working in the labs are infectious disease specialists who do 
this----
    Chairman Issa. I don't want to know who they are. I want to 
know are they exposed.
    General Lariviere. They are considered actually low risk 
because they actually have the entire suite of protective 
equipment and the extensive training.
    Chairman Issa. You know, one of my problems, General, very 
little time, and I want to be pleasant through this whole 
thing. But we have the head of CDC, supposed to be the expert, 
and he has made Statements that simply aren't true.
    Doctor, you can get Ebola sitting next to someone on a bus 
if they, in fact, throw up on you. Can't you? That is 
reasonable.
    Dr. Lurie. The way you get Ebola is by exposure to body 
fluids, yes.
    Chairman Issa. OK. So when the head of the CDC says you 
can't get it with somebody on the bus next to you, that is just 
not true.
    When the head of the CDC says you cannot in fact--that we 
know what we are doing, but, in fact, health care 
professionals, wearing what they thought was appropriate 
protective material, got it, then that means he is wrong. When 
the head of the CDC goes on television and says, sometimes less 
protection is more--is better, and then has to reverse the 
protocols so that we no longer have nurses, Ms. Burger, who 
have their necks exposed, that was just wrong, isn't it? Ms. 
Burger?
    Ms. Burger. That their necks were exposed?
    Chairman Issa. I mean the fact is the head of the CDC gave 
false information, basically saying it was OK to have your neck 
area exposed, when, in fact, if somebody threw up on you that 
could be----
    Ms. Burger. I honestly don't know that those nurses were 
instructed that their necks were OK to be exposed. I know 
that----
    Chairman Issa. The head of the CDC, when asked about 
whether you had to have full body suits versus simply the 
mouth, said sometimes less is--you know, more is not 
necessarily better. So the head of the CDC was wrong. We are 
relying on protocols coming from somebody who has been proven 
not to be correct. Isn't that true?
    Ms. Burger. Those nurses were not protected. Correct.
    Chairman Issa. Mr. Roth, I don't want to belabor waste, 
fraud, and abuse at this hearing, even though that is a lot of 
what this committee looks for. But if I understand correctly, 
you have--your report shows that they didn't know what they 
were buying and why particularly well. They bought large 
amounts without a recognition that it was going to essentially 
expire and without a plan to rotate it or in some other way put 
those materials into good use the way DOD normally does in 
order to prevent items from expiring that have secondary use. 
Is that all correct?
    Mr. Roth. That's correct.
    Chairman Issa. And although I know you can't reach every 
conclusion, in your material, did you discover that, for 
example, the face masks, that instead of buying them they 
simply could have had a rotating inventory that they could have 
drawn from that would have allowed the vendor to maintain a 
stockpile but rotate it so they would only take possession--
which is also done at DOD on occasions--they would only take 
possession when they need it, and, in fact, they wouldn't have 
to buy it but rather rent the availability of it. Did you look 
into that at all or did they look into that at all?
    Mr. Roth. They did not look into that at all. Certainly 
when we make our recommendations, one of the things that we ask 
them to do is explore the types of options that you talk about.
    Chairman Issa. So all of those options are going to need to 
be looked at, evaluated, and available to Members of Congress 
before we start writing checks for large stockpiles. Wouldn't 
that be correct?
    Mr. Roth. That's obviously up to Congress to decide. And 
certainly now the Department is starting to do the kinds of 
planning that we had recommended.
    Chairman Issa. I will close with Mr. Torbay. The pictures 
that the ranking member showed and the situation in Africa is 
certainly desperate. And I know my constituents are most 
worried about what comes here. But realizing that 4,000 there 
versus less than one handful here certainly shows us where the 
problem is. And I think you said that very well. But, in fact, 
medical personnel that are dispatched from here go there and, 
in more than a few cases, find themselves infected. Isn't that 
true?
    Mr. Torbay. Correct.
    Chairman Issa. So I want to just ask--it might be both--but 
is that primarily because of the conditions under which those 
doctors and nurses and other health care professionals find 
themselves working, or is it for lack of training? Is it more 
one or the other?
    Mr. Torbay. Mr. Chairman, it is a combination of both. Our 
medical staff, they are heroes, doctors and nurses. They work 
in probably 95-degree temperature wearing those PPEs that you 
have seen. Our rotations are every hour. We get them out every 
hour because they are dehydrated.
    Chairman Issa. So they are capable of not getting infected 
if they were in a good facility dealing with one patient rather 
than questionable facilities, endlessly, for 24 hours a day, 
trying to deal with an onslaught of patients. Is that correct?
    Mr. Torbay. I would say in our facility--it's a 70-bed 
facility--we have 230 staff members. And their only job is 
actually to look after the patients that are infected with 
Ebola.
    Chairman Issa. To the greatest extent possible, I am going 
to ask one last question that I would like to have people say a 
yes or no. Ebola is a 35-year-old disease. It is not new. It 
was discovered a long time ago. And we have spent money looking 
into it, planning for it. The various flus, the influenzas, 
going back to at least 1918, are not new, and they have a 
similarity in that they can be transmitted and they kill. Since 
this is a hundred-year-old process of dealing, at least, with 
modern infectious diseases, is there inherently a similarity in 
that, whether it's Ebola or, in fact, a pandemic, that we in 
Congress should be looking at the planning and the prevention 
and the training somewhat homogenously?
    In other words, today we are looking at Ebola. Should we be 
looking at infectious diseases, the training, the prevention, 
the handling, the emergency? Should we on this side, the 
nonmedical professionals, look at this as a failure of not just 
Ebola, but infectious diseases of this entire sort that we 
could have and should have been more prepared for? And to the 
extent you can, I would appreciate a yes or no. Doctor?
    Mr. Torbay. Yes.
    Chairman Issa. Ms. Burger.
    Ms. Burger. Yes.
    Chairman Issa. Doctor?
    Dr. Lurie. It is a somewhat more complicated question. 
Ebola and flu are very different. And they are spread very 
differently.
    Chairman Issa. Well, I was using infectious diseases and 
the isolation, the maintenance, and so on. I wasn't trying to 
say that those which can be aspirated or in some other way 
transmitted. The point, though, is AIDS and lots of other 
diseases--AIDS being much more similar to Ebola as far as fluid 
transmission--we have had these for a long time. We are now 
seeing failures.
    In your opinion, Doctor, are these failures to a certain 
extent the fact that we said we were planning to deal with 
infectious disease, prepare our health care system, and our 
doctors and nurses, and, in fact, it appears as though we 
trained them but not trained them to the level we should? Yes 
or no.
    Dr. Lurie. I think that our failures largely relate to the 
fact that we are learning some new things about Ebola. Ebola 
has never been in this hemisphere before. And as we are 
learning those things, we are tightening up our policies and 
procedures as quickly as possible.
    Chairman Issa. Mr. Roth.
    Mr. Roth. To the extent that the viruses transmit in the 
same way, when we looked at the logistics, the acquisition 
management, I would say the answer would be yes.
    Chairman Issa. Doctor? Or Mr. Lumpkin.
    Mr. Lumpkin. This is outside of our purview and lane.
    Chairman Issa. OK.
    With that, I will go to the gentlelady from New York.
    Mrs. Maloney. Thank you.
    And I first would like to thank all of our distinguished 
panelists for coming today during what is a critical time in 
the Federal Government's response to an urgent global crisis.
    First, I would like to take a moment to commend the health 
care professionals in New York City for their outstanding 
response yesterday to our first case of Ebola. New York City 
has been working with New York State, the Centers for Disease 
Control, to prepare for this. And our Nation's largest city, 
based on what we know now, I believe they have responded and 
done absolutely everything right. A young physician had 
returned from West Africa 10 days ago, where he had been 
working on the Ebola crisis with the Doctors Without Borders. 
Upon arrival into the United States, the doctor was flagged by 
the CDC and Customs and Border Patrol, and reported to New York 
City health officials. Yesterday, when he reported he had a 
103-degree temperature and was experiencing pain and nausea, 
the New York City health care system sprang into action. The 
patient was immediately transported to a specially trained Haz-
Tac Unit, wearing personal protective equipment, to Bellevue 
Hospital. The hospital had previously been designated for the 
isolation, identification, and treatment of potential Ebola 
patients by the city and State officials.
    Governor Cuomo has designated eight special hospitals in 
New York City. Earlier this week, a specially trained CDC team 
visited Bellevue and determined that the hospital has been 
trained in proper protocols and is well prepared to treat 
patients.
    I must say that I respond to your concerns about nurses. 
And at the hospital, there were clear protocols in place 
established by the health department to ensure that nurses and 
all staff caring for the patient followed the strictest safety 
guidelines and protocols. Contact teams were ready to quickly 
identify, notify, and, if necessary, quarantine any contacts 
the patient may have had on his three trips on subway, visit to 
a restaurant, and a ride in a taxi cab. The health department 
is now working with the HHC leadership, Bellevue's clinical 
team, and the New York State Department of Health. And the CDC 
is assisting us daily in this effort. They are in close 
communications with the New York City Health Department, 
Bellevue Hospital, I would say all elected officials, and they 
are providing technical assistance and resources.
    The CDC already had a team of Ebola experts in New York 
City. They were already there to help. Three members I am told 
were flown in last night from the CDC's so-called CERT team to 
join their colleagues already on the ground. And we are told 
that more CDC professionals will come in if needed. The CDC 
Ebola Response Team will arrive within 24 hours to any location 
in the United States where a case is reported. And so far, this 
is absolutely true, it is what has happened in New York City.
    This week, CDC named New York City and State as one of six 
States who will begin active post-arrival monitoring of 
travelers whose travel originates in either Liberia, Sierra 
Leone, or Guinea, and arrive at one of the five airports in the 
United States doing enhanced screening. Active post-arrival 
monitoring means that travelers without fever or symptoms 
consistent with the Ebola symptoms will be followed up daily by 
State and local health departments for 21 days from the date of 
their departure from West Africa. And active post-arrival 
monitoring will begin on Monday, October 27.
    I want to reiterate that Ebola is not airborne. Someone 
infected with Ebola can only transmit the virus if they are 
experiencing symptoms, bodily fluids in direct contact, 
vomiting, blood, saliva, diarrhea. There are over 9,000 
reported cases and over 4,000 deaths. I am told that the 
American health system is now actively reviewing two vaccines. 
They are in clinical trials. And we are responding.
    My question really is to you, Dr. Lurie, about the hospital 
preparedness program. But, first, I would like to request that 
this Statement that was prepared by the Trust for America's 
Health, a nonprofit----
    Chairman Issa. Without objection, that will be placed in 
the record.
    Mrs. Maloney. It talks about the need for enhanced funding, 
that our funding is not up to the threat that our country 
faces.
    I would like to ask you, how does the program help to 
ensure that our hospitals that are so designated across America 
are prepared to respond in a health emergency? And I would like 
to thank your program for the help that you gave to the great 
city of New York. Thank you.
    Chairman Issa. The gentleman gentlelady's time has expired, 
but you, of course, can answer.
    Dr. Lurie. Well, thank you so much. And we were very 
gratified last night to see the kudos to the program and kudos 
to New York City for their tremendous job in responding. Our 
program gives money to States--and, in the case of New York 
City, directly to New York City--to help the health care system 
become prepared. It is defined as a set of eight basic things 
that every health care facility needs to do and provides the 
funding for training, for exercising, for planning, for the 
purchase of personal protective equipment, and other things 
necessary for hospitals and other health care facilities to be 
prepared. It is, in fact, one of the reasons that Bellevue and 
I believe other hospitals in New York City have been able to do 
such a tremendous job getting ready for this. And we will 
continue to support them through this program and others as 
they move forward.
    Chairman Issa. Thank you.
    The gentleman from Florida, Mr. Mica.
    Mr. Mica. Well, first off, I have to take sort of a point 
of personal privilege. The chairman missed a word in his 
opening Statement and apologized for being on a plane.
    The committee should know, you know, the country faces two 
incredible threats right now. One is ISIS, or this threat we 
face from terrorism we have seen this week. It threatens not 
only the United States, but the world and our allies. But Mr. 
Issa, and I accompanied him, and we had a Democrat Member from 
the Foreign Relations Committee, was in Iraq. We were in Iraq 
last night. We left there at 6 o'clock in the evening and flew 
all night. And this is how dedicated he is, to make sure that 
we are prepared over there. You would be so proud of our troops 
that we saw. Incredible.
    And General, too, you get called on to do some tough stuff. 
But I saw our men and women. They are just awesome. And we had 
a chance to meet with some of our allies to get them to step up 
to the plate. But we face that threat nationally, domestically, 
and internationally.
    We face Ebola, a very serious threat. Dr. Torbay, this 
ain't going away any time soon, is it?
    Mr. Torbay. We are hoping that we could contain it. If all 
steps that are being put in place are followed, it will be 
contained.
    Mr. Mica. Here is a report I read on the plane last night. 
It says, ``Experts warn the infection rate could reach 10,000 a 
week by early December.'' Ten thousand a week. Is that semi 
accurate?
    Mr. Torbay. That is what the----
    Mr. Mica. The way things are going now. This is a report I 
got on probably the people that are most at risk are health 
care workers, whether they are there or here. Would that be 
correct? This isn't up to date, but you had 404 cases of Ebola 
in health care workers; 232 died. Pretty high fatality rate, 
right, Doctor?
    Mr. Torbay. That is correct.
    Mr. Mica. OK.
    Thank you, Ms. Burger, for representing the nurses. Do we 
know how those nurses were infected or exposed, how they caught 
Ebola, for sure?
    Ms. Burger. Thanks to the whistleblowing efforts of Briana 
Aguirre, we know that the nurses did not have optimal standards 
for personal protection.
    Mr. Mica. OK. So we know that they weren't properly 
protected.
    Ms. Burger. Or trained on protocol.
    Mr. Mica. Or trained. OK. All right.
    Dr. Lurie, you said that we are putting additional 
protocols in place, guidance. Right? When was the most recent?
    Dr. Lurie. The most recent----
    Mr. Mica. A week ago? A month ago?
    Dr. Lurie. The most recent guidance on personal protective 
equipment has been in the last couple days.
    Mr. Mica. And what about--OK.
    Dr. Lurie. It was changed in response--it was changed in 
response to the situation at Dallas Presbyterian.
    Mr. Mica. OK. So in the last couple of days. You said 
airport screening. When was that instituted, the new 
guidelines?
    Dr. Lurie. I can't recall exactly the date that it started.
    Mr. Mica. A week ago.
    Dr. Lurie. The funneling into the five airports was in 
response in the last week.
    Mr. Mica. Last week. I can tell you, it is not working. OK? 
All we got to do is look at Craig Spencer. He was tested there. 
It is not working.
    Now, he is a medical professional. He reported himself.
    And then you see cases where, again, we are not prepared 
still. The whole part of this hearing is all about Mr. Roth's 
report. This is the inspector general's report, right, Mr. 
Roth?
    Mr. Roth. Yes.
    Mr. Mica. We spent millions of dollars getting prepared, 
right?
    Mr. Roth. Correct.
    Mr. Mica. OK. Didn't you just testify that in fact--and it 
is in this, I think page 7 here--200,000 of our pandemic 
respirators have gone beyond their 5-year manufacturer 
warranty?
    Mr. Roth. The ones that TSA----
    Mr. Mica. On page six, don't you testify that--this is a 
bottle of hand sanitizer. You tested it. Eighty-four percent of 
the hand sanitizer is expired that you tested. Is that right?
    Mr. Roth. That is correct.
    Mr. Mica. So how do I tell the American people that we are 
prepared, that we spent millions of dollars for a pandemic--and 
here it happens to be Ebola. And you just heard testimony how 
important it is to have the right protections. The equipment, 
almost all the equipment you cited in this report in fact is 
either out of date, it was--the purchasing made no sense. We 
don't know the inventory. We don't know who has got it. We 
don't know who is going to get it. Is that right, Dr. Roth?
    Mr. Roth. Mr. Roth, but thank you for the promotion.
    Mr. Mica. OK. I upgraded you.
    Mr. Roth. Yes. You are correct.
    Chairman Issa. The gentleman's time has expired, but if you 
call everyone ``doctor,'' you will do very well.
    Mr. Mica. Your report is correct. And I thank you. I have 
additional questions. Thank you.
    Chairman Issa. Thank you.
    The gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you very much, Mr. Chairman.
    Thank the members of the panel for their testimony here 
today and for the work that they do on a regular basis. I think 
folks here that don't already know may be pleased to know that 
the news was just released that the Presbyterian Hospital Nita 
Pham is Ebola-free, according to the National Institute of 
Health. And she will be released today. I think that is good 
news on one front on that.
    I think also a little bit of good news, and Mr. Torbay was 
mentioning it, is that the United States has taken the lead in 
the international response to this. And I think we don't often 
give credit where it is due on that. I think we should all be 
proud that this country at least recognizes that not only do we 
have issues within our own country here that we have to deal 
with in terms of people that may be exposed or come down with 
the disease and come to this country, or be here when they are 
treating somebody, but that you do have to go to the source 
with a shock-and-awe type of approach as if you were in some 
sort of battle. We are losing lives. And we are losing 
situations that could then endanger the entire international 
community. So we need a shock and awe, all the things that Mr. 
Torbay talked about. Do we have a large enough response? Is it 
coordinated accurately? Are the people that go there supplied 
and trained and equipped sufficiently to get the job done?
    So my first question might be to Mr. Lumpkin and Dr. Lurie 
and Mr. Torbay, is the international effort now, in fact, large 
enough? Is it being well enough coordinated? Is there 
sufficient training and equipment for those that are involved 
in it? And if not, what remains to be done and by whom? So Mr. 
Lumpkin.
    Mr. Lumpkin. In West Africa, U.S. leadership is galvanizing 
support on the international front. So what we have seen is 
that since the--we have gone in with speed and scale that the 
international community is coalescing to come together in order 
to fight the Ebola epidemic.
    Mr. Tierney. Dr. Lurie, is that coordinated enough? Are the 
people well trained and equipped enough? Is the response 
sufficient enough? Who should be responsible for what remains 
to be done, if anything?
    Dr. Lurie. So I would agree with Mr. Lumpkin's assessment 
of the situation in West Africa. It has taken time to get the 
resources in place there. U.S. leadership has been incredibly 
welcomed and incredibly important. As a result of that, we are 
finally seeing many other countries of the world step up to put 
resources in place in West Africa.
    Mr. Tierney. So, Mr. Torbay, maybe you can help me. Is the 
response adequate enough? Are people that are now involved 
trained enough and equipped enough? Is it well enough 
coordinated to be able to start containing the situation and 
then hopefully wrestling it to the ground?
    Mr. Torbay. The U.S. and the UK have stepped up. Now it is 
time for the rest of the world to follow suit. The training is 
picking up. The DOD started their training. We started our 
training. The minister of defense in the UK is starting their 
training in Sierra Leone. I think, within the next 3 to 4 
weeks, the training would be up to speed, which is critical. 
Supplies, PPEs are coming in. The different levels of PPEs, 
they are coming in. We hope that the pipeline will continue to 
come in. I think the other countries need to step up. We cannot 
forget about Guinea and containment of the Ebola in Guinea. 
This is where it started. Businesses need to get involved more. 
The economical toll of this outbreak is just phenomenal. We 
need to think about that. We need to think about technology as 
well. The development of vaccine is critical, but also 
technology companies need to start thinking about creative ways 
to monitor people when they are coming back, monitoring the 
temperature instead of having to rely on patients checking 
their temperature twice a day. And I think if the 
interventions, the international interventions continue at the 
same pace that it is now, I think it will be contained within 
the next 4 to 6 months.
    I would also like to thank the Department of Defense, the 
U.S. Navy, for putting a lab actually in Bong County, right 
next to our ETU. This has cut down the testing time from 3 to 5 
days to 5 to 7 hours of Ebola patients. So we are accepting 
patients, testing them, releasing them if they are negative, 
and avoiding infections by them staying in the isolation ward.
    Mr. Tierney. Thank you. This isn't the hearing for it, but 
Mr. Roth, thank you for your work. I am also amazed that 
agencies like DHS don't go to the Government Accountability 
Office or somebody in advance to learn how to set up a protocol 
as opposed to waiting until they get audited later and find out 
that they didn't do it correctly.
    But Mr. Chairman, I suspect we will hear that later.
    Dr. Lurie, last question. This is not new. Ebola has been 
around a while. Obviously, people think that we could have been 
a lot further along in terms of vaccination or some other type 
of treatment or medicine on that. But there has been no profit 
motive sufficiently involved on that. What are we doing--not 
just with Ebola, but anything along the situation line with the 
chairman's question earlier--what are we going to do to make 
sure that we have the kind of forward thinking that if the free 
market and the profit motive isn't going to resolve these 
things and get them done, what are we going to be able to do as 
a public policy?
    Dr. Lurie. I this is a great question, and I thank you for 
it. Were it not for the investments in biodefense and getting 
going with Ebola vaccines and therapeutics, we would be nowhere 
near where we are now with the safety testing of two promising 
vaccine candidates going on and soon to be testing some 
therapeutics. So we do need to think about emerging diseases. 
We do need to think about developing products, countermeasures 
for them now. And we have appreciated the support from Congress 
for BARDA, the Biomedical Advanced Research and Development 
Authority, both through its direct funding and through the 
Project Bioshield Special Reserve Fund that have helped us 
ensure that there is a market, ensure that product developers 
and manufacturers will step up to the plate and work on these 
important threats.
    Mr. Tierney. So you are talking about public financing 
being used to establish those markets on that as opposed to 
just the private industry on its own going out and trying to 
work with the free market aspect?
    Dr. Lurie. We have been talking about some very positive 
public-private partnerships and some tremendous models that we 
have developed over the past several years, whether it's been 
about biothreats or whether it's been about pandemic flu, and 
now with Ebola, that are really making that possible, yes.
    Mr. Tierney. Thank you.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    The gentleman from North Carolina.
    Mr. McHenry. Thank you, Mr. Chairman.
    My questions are for the Assistant Secretary and--the 
Assistant Secretary and for the General. We have our men and 
women in uniform that are now in regions that are severely 
affected by Ebola. To their parents, their mothers and fathers 
of these men and women, do you have every confidence that they 
have every bit of the equipment and training that they need to 
be protected, to be safe, and to return home healthy?
    Mr. Lumpkin?
    Mr. Lumpkin. The safety of our servicemembers----
    Mr. McHenry. The right answer is yes.
    Mr. Lumpkin [continuing]. Is absolutely paramount. And 
while you can never mitigate risk to zero, I think we have 
taken all the steps to mitigate the risk. So my answer is yes.
    Mr. McHenry. General?
    General Lariviere. Sir, the combatant commander and the 
services are making every effort to ensure that the troops have 
the proper training and proper equipment they need for this 
mission so that they can return home safely.
    Mr. McHenry. Mr. Lumpkin, you said in your opening 
Statement that if infected, if someone contracts Ebola in 
country, they will be returned back to the United States and 
cared for in a CDC facility. Is that correct?
    Mr. Lumpkin. I did not say that in my opening Statement.
    Mr. McHenry. But you mentioned a CDC facility where 
treatment would be given. Then let me ask you a question: If 
somebody comes down ill in country, how would they be cared 
for? Will they be cared for in country, or will they be 
returned to the United States?
    Mr. Lumpkin. They will be returned to the United States. 
But I would defer to my Joint Staff counterpart on the 
specifics.
    General Lariviere. Thank you for the question. So to take 
care of the troops in country, there will be two Role 2 
hospitals; one established in Monrovia, one established in 
Sierra Leone. The medical personnel there will be trained in 
how to treat Ebola victims if a U.S. uniformed military person 
does, in fact, contract it. To answer your question whether 
they will be treated in country or sent home, the answer is 
obviously both. If they are identified for some reason of 
having high risk of exposure, or if they actually do start to 
exhibit symptoms, they will be cared for initially in country, 
and then they will be moved home. If they are asymptomatic, 
they will do what we call a controlled movement, which will be 
an individual movement on a DOD aircraft.
    Mr. McHenry. How many aircraft are outfitted to move these 
individuals out of country in the event that this happens?
    General Lariviere. So, for controlled movement, any 
aircraft can do, because as has been pointed out, they are 
asymptomatic and not contagious at that point. So any aircraft 
could do. At the present time, the only aircraft that can move 
the symptomatic patients is the State Department's Phoenix Air 
Contract, which you have seen moving the other Ebola patients.
    Mr. McHenry. How many patients can that aircraft hold?
    General Lariviere. The aircraft can hold one at a time, and 
can do four movements a week at this point.
    Mr. McHenry. Four movements a week?
    General Lariviere. Yes, sir.
    Mr. McHenry. Is that sufficient?
    General Lariviere. Given the number of Ebola patients that 
the United States has had in total at the present time, it is 
sufficient. However----
    Mr. McHenry. But that is not how these epidemics work.
    General Lariviere. Right. So, at this time, the Department 
of Defense has an urgent U.N. Statement that is being worked 
through the system with TRANSCOM to put together an isolation 
pod that can carry multiple persons for C-17 aircraft. Testing 
will begin in October--or I am sorry, development will begin in 
October, testing in December. Procurement will begin in 
January.
    Mr. McHenry. In January?
    General Lariviere. In January.
    Mr. McHenry. In January. And how many individuals will be 
able to be transported?
    General Lariviere. Fifteen at a time.
    Mr. McHenry. Fifteen at a time. What is the turnaround time 
for the plane? How many movements a week?
    General Lariviere. We hope to procure a number of these 
systems so that they can be put on any C-17, so if we had--so 
we could move multiple C-17s to----
    Mr. McHenry. So, at current State, we can take less than 10 
people out of country in a week's time.
    General Lariviere. If they are symptomatic.
    Mr. McHenry. So this is not at all sufficient.
    General Lariviere. We don't know--at the current time, we 
expect we will not be doing direct patient care. And so we 
anticipate----
    Mr. McHenry. I understand. But how many American troops 
will we have in the region by the end of the year? What is our 
maximum?
    General Lariviere. In the vicinity of 3,000.
    Mr. McHenry. Of 3,000.
    General Lariviere. Yes, sir.
    Mr. McHenry. This is very disconcerting. Is it a question 
of--Mr. Lumpkin, is it a question of resources? Does Congress 
need to appropriate funds so that we can actually get more 
planes, more logistical support here so that we can have the 
capacity if something absolutely horrible happens to our 
fighting men and women in country?
    Mr. Lumpkin. Well, we clearly have an identified 
requirement. And as we develop the capacity, I would like to 
take that one for the record just to make sure I get you--
because I am not familiar with the acquisition and the process 
or the actual requirements that would----
    Mr. McHenry. I think you should get familiar with the 
acquisition process if we currently have one plane that is 
controlled by the State Department. I am asking the Department 
of Defense, with the mass number of airplanes, equipment, and 
training capacity that we have, nearly--spending nearly half a 
trillion dollars annually on the Department of Defense. If you 
need it, you will get it. We will demand it. Because if we are 
putting these men and women in harm's way, potentially where 
they can contract Ebola, the idea that we have one airplane as 
the United States to get these men and women out of country in 
a safe manner if they contract what is absolutely horrible, 
which we want to control, which we absolutely want to control, 
the idea that you are coming before us and giving this type of 
testimony raises great concerns.
    I know you have been asked to do a lot. And I absolutely 
respect that. But we are asking you in the legislative branch 
to tell us what you need, and we will get it. Because we don't 
want to put our men and women in harm's way without any 
capacity to care for them. Our veterans, our fighting men and 
women deserve the best health care in the world, the best 
training in the world. And they have it. But it means the 
proper protocols at the top level are there to make sure they 
are protected. And if something bad happens, they are 
immediately taken out of harm's way, cared for, and returned 
back to their normal State.
    And, with that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the second gentleman from Massachusetts, Mr. 
Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    And I thank the ranking member, Mr. Cummings, for holding 
this hearing.
    And I thank the panel. You have been very helpful.
    As a matter of fact, there have been some marked contrasts 
between the testimony here this morning. And I want to drill 
down on that a little bit, because sometimes that is helpful 
when people on the panel disagree.
    Dr. Lurie, you testified, and it is in the written 
testimony, that we are better prepared than ever and that you 
have a comprehensive response on the ground.
    On the other hand, Mr. Roth, our inspector general, you 
were commenting how the analysis done by--I think you were 
talking about DHS in your testimony, how the equipment 
purchases are not adequate, in some cases the wrong equipment; 
in other cases the usefulness of the equipment or drugs are 
beyond the expiration date. Dr. Lurie, you testified that you 
have a very aggressive system in place.
    And, on the other hand, President Burger from National 
Nurses United said that they have done a survey. They have done 
a survey of 3,000 nurses from every State in the Union and the 
District of Columbia. And 85 percent of those nurses say that 
they have not been trained to deal with Ebola, and that 
preparedness is, and this ``woefully insufficient and 
dangerously inadequate.''
    So those are two different stories of what is going on 
here. Now I understand we don't want to panic people. But we 
also don't need happy talk in terms of what we are dealing 
with. And maybe it is just me, but lately, when a government 
agency comes before this committee especially and tells me 
there is nothing to worry about and we have got this, that is 
when I start to worry.
    Now, as to who to believe, I think the nurses--and I know I 
have got some nurses here from the Massachusetts nurses 
association as well, I know how hard they work. They are on the 
ground. They are our front lines in this battle against Ebola. 
They are our ground troops. They are the people who are doing 
this work every day. They are exposing themselves, and perhaps 
their families, perhaps their families, if things go wrong, if 
they don't have the adequate equipment. So when they tell me 
that they are not prepared, I tend to believe them. I think 
those are facts. Those are facts. And we need to make sure that 
we get them the equipment and the training they need to protect 
themselves and to protect our communities and to protect their 
own families.
    There are a couple of facts that we have gotten in the 
briefings from the various panelists. One fact is that the CDC 
estimates that by this January, there will be up to 1.2 million 
people in West Africa afflicted with Ebola--1.2 million. The 
estimate by DOD is 1.2 million, 1.2 million in January. Now, 
they were done at different times, so the difference might be 
just the period of time that they were taken, if things go as 
they are right now, 1.4 million. So we have got a real and 
present danger to the people of West Africa and to the people 
in the United States, who I am pledged to protect.
    Now, I understand that the current approach is to use what 
they call a post-arrival approach so that we are going to have 
these hospitals, and that as people arrive from West Africa, we 
are going to begin an analysis and a quarantine and checking 
them and making sure that they are not carrying Ebola.
    But it seems to me--and I listened, and Mr. Torbay, you 
have given some very powerful testimony, a lot of it written, 
quite frankly, and you haven't had a chance to talk about it, 
but you were saying that the focus should be on West Africa. 
And what we are setting up here right now with this post-
arrival in the U.S. approach is we are going to set up these 
hospitals, all this equipment, everything here in the United 
States, and wait for those folks to arrive.
    And I believe that we should be doing just the opposite. 
Well, we should be doing that, but we should also be doing 
something else, and that is pre-departure. Pre-departure. We 
know that we are about to have 1.2 million, 1.4 million people 
in West Africa afflicted with Ebola. We ought to be on the 
ground there. We ought to have--instead of the restriction here 
in the United States after they come in of 21 days, there 
should be a 21-day pre-approval. When they say they want to 
travel to the United States, they need to present themselves 
and report in person 21 days before they get on that plane. And 
we can take their temperature and a blood sample, if necessary, 
so that 21 days later, when they appear to travel, we can test 
them again. Now we have got two contact points on that person 
before they fly to the U.S., and we can also do that post-
arrival check as well.
    But we are not taking this seriously enough. We are not. 
And, you know, we need to help, you know, our brothers and 
sisters in West Africa, absolutely. But we have got to use--we 
have got to have a fact-based approach to this. This can't be 
just about ideology and happy talk. You know, we have to look 
at this very seriously and have a scientific-based approach to 
what we are going to do about this problem. And I don't think 
it helps to say we have got an aggressive thing on the ground, 
everything is good. Because I have got a feeling, in a couple 
of months, you are going to come back here and give us a whole 
different story. We have heard that before. So we have got to 
approach this in a very deliberate manner, and take it much 
more seriously than what I am hearing here today. And, you 
know, we owe that--we owe that to the citizens that we 
represent here in the United States as well as to those 
individuals in West Africa, who we obviously want to support as 
well.
    But Mr. Torbay, let me just ask a question, wrapping up 
here. Your focus, you were saying that you want to make that 
containment effort in West Africa. Wouldn't it be--think about 
this. If we were putting our folks from all over the world, you 
know, medical personnel on the ground, you know, in Monrovia or 
at Freetown, wouldn't it be better, wouldn't it strengthen the 
infrastructure there on the ground in West Africa, as opposed 
to just having a post-arrival process here in the United 
States?
    Mr. Torbay. Thank you for your question, Mr. Lynch. You 
know, as I mentioned, it needs to be contained at the source in 
West Africa. This is where the majority of the investment needs 
to take place. This is where training needs to take place. This 
is where equipment and supplies need to take place. And this is 
where most of the investment needs to take place.
    Now, that said, we cannot just focus on one without the 
other. What we are doing here in the U.S., we are treating the 
symptoms of the outbreak in West Africa. We need to deal with 
the root cause of the outbreak, of the problem, and that is 
actually at the community level in West Africa. I believe pre-
departure there are some tests, temperatures being taken for 
anybody actually departing any of those countries before they 
board the flight.
    Mr. Lynch. At the time of the flight, yes, they get tested 
before they get on the plane. What I am talking about is doing 
something 21 days before, so that you have got two contact 
points that you can have measurements on. It is not foolproof. 
But having two contact points there in West Africa before you 
arrive in the United States----
    Mr. Jordan [presiding]. The gentleman can respond.
    Mr. Lynch. OK, Mr. Chairman. Thank you for your indulgence. 
I know I am way over.
    Mr. Jordan. Do you have a quick response, Mr. Torbay?
    Mr. Torbay. One thing that we worry about in terms of 21 
days, we are having difficulties recruiting health personnel 
from the U.S. to go and work there because there is a minimum 
requirement of 6 weeks. If we impose an additional 21 days, 
that is 9 weeks. And it is extremely difficult for any hospital 
or university to allow doctors and nurses to take off for 9 
weeks before they come back. Again, we cannot completely wrap 
ourselves in a bubble here. People will go from Guinea or 
Sierra Leone to Senegal, will wait a week, take a flight to 
Europe, wait a couple of days, then come here, and there is not 
much we can stop it from doing that. So the preparedness needs 
to take place at both ends.
    Mr. Lynch. With all due respect, though, there is only a 
few flights, there is only a couple of flights out of there. 
You can actually do this.
    Mr. Jordan. We have to move on. I thank the gentleman for 
his good points.
    Dr. Lurie, when you were in front of Congress in 2011 back 
during the debate on the reauthorization of the Pandemic Act, 
the act that created your agency and your position, you had an 
exchange with Mr. Rogers, a colleague of ours, from Michigan. 
He said this: ``There is a point person, somebody that makes 
the decision, somebody that is absolutely in charge. It's not 
CDC. It's not NIH. It's not FDA or anyone else. It's you.'' 
Your response was, ``That's right.'' So you are the key person. 
Right?
    Dr. Lurie. My role is to be the principal adviser to the 
Secretary on these matters, yes.
    Mr. Jordan. You are the key person in the government for 
medical preparedness, public health emergencies; you are the 
key person in the U.S. Government.
    Dr. Lurie. In HHS.
    Mr. Jordan. Got it. Let's go to the first slide, if we 
could. I just want to put up a couple slides. This is straight 
from your Website, just to be clear. It says you are the 
person, your agency, the Assistant Secretary for Preparedness 
and Response to lead the Nation in preventing, preparing for, 
and responding to the adverse health effects of public health 
emergencies and disasters.
    Further down, the Secretary of HHS delegates to you the 
leadership role of all health medical services, support, 
function in health emergency and public health events. You are 
the key person. Correct?
    Dr. Lurie. That's what the legislation says, yes.
    Mr. Jordan. No, that is not the legislation. That is your 
Website.
    Dr. Lurie. That is my role.
    Mr. Jordan. Yes, that's the Website. The legislation 
definitely says that. Your Website confirms that.
    Dr. Lurie. That is my role.
    Mr. Jordan. You are the key person. Have you met with Ron 
Klain, the new Ebola response coordinator?
    Dr. Lurie. Yes, I met with him his first day, and I had 
several conversations and an in-person meeting with him 
yesterday.
    Mr. Jordan. Have you met with Tom Frieden, Dr. Frieden at 
the CDC?
    Dr. Lurie. I meet with and talk to Dr. Frieden almost every 
day.
    Mr. Jordan. Good. We would expect that to be taking place. 
Are you familiar with the story that Ms. Harrington did in the 
Washington Beacon I think, the story that says $39 million 
worth of NIH funding that could have gone to an Ebola vaccine. 
Are you familiar with that story?
    Dr. Lurie. I am not familiar with the story. But if you 
familiarize me on the specifics, I would be happy to respond.
    Mr. Jordan. I am going to do that. Are you familiar with 
the fact that $275,000 on a restaurant intervention to develop 
new children's menu was spent of NIH dollars? Are you familiar 
with that? Are you familiar with the fact that $2 million were 
spent to encourage the elderly to join choirs? Money from the 
NIH. Are you familiar with that?
    Dr. Lurie. I am not familiar with the details of grant 
programs at NIH----
    Mr. Jordan. $53,000 on a project studying sighs. Are you 
familiar with that? Are you familiar with the fact that $39 
million of NIH funding was spent for all kinds of things that--
I mean that I guess cut to the chase. One of the things you 
learn in your first economics class. Not that I was a great 
student, but I did study a little economics. One of the things 
they tell you is the term opportunity costs. Right? When you 
spend and allocate resources for one thing, you by definition 
can't use those resources for something else. And so here is 
what I think a lot of American people want to know: Why, in 
fact, did we spend so much money on, for example, $374,000 to 
host fruit and vegetable puppet shows for preschoolers when, in 
fact, some of this money, as catalogued by the press account 
and by staff, totaling $39 million, could have been used to 
help with treatment for something like Ebola and potentially a 
vaccine? Are you involved in the decisions that NIH makes when 
they are deciding how to allocate some of that money?
    Dr. Lurie. I am involved in the decisions related to our 
biodefense and our preparedness programs for emerging 
infectious diseases, yes. The NIH, the CDC, the FDA, my office, 
DOD, DHS, the VA, and the Department of Agriculture all work 
together on those issues.
    Mr. Jordan. But aren't you the point person in coordinating 
all of that?
    Dr. Lurie. Yes.
    Mr. Jordan. So, at some point, you have to sign off and say 
it's OK that $374,000 is used for puppet shows instead of 
potentially being used--losing the opportunity to use that 
money to develop a vaccine to deal with something like Ebola.
    Dr. Lurie. So, with respect, sir, I think you have--I would 
like do a little bit of clarification here. I think there is a 
little misunderstanding about how the NIH budget is allocated. 
But that is not my responsibility and my purview. So I suspect 
we should----
    Mr. Jordan. Let me go back to that same exchange you had 
with Congressman Rogers just a couple years ago, when we were 
reauthorizing the act that created your position and made you 
the key person. Mr. Rogers says this--you said this when you 
responded to Mr. Rogers--how can we improve functions at HHS to 
ensure that you are, in fact, in charge--that you are the 
person in charge? NIH is in HHS, right?
    Dr. Lurie. Yes.
    Mr. Jordan. Yes. So you are the key person at HHS. How can 
we improve, Mr. Rogers asked you. You said, ``I have found 
through experience that indeed I have the authority that I need 
to be in charge.'' You followup by saying, ``And I find that 
the collaboration with sister agencies and HHS, I don't think 
it has ever been better. We are working extremely close 
together. I think they recognize and respect the fact that we 
provide policy direction and are in charge. And I think all the 
efforts that we have undertaken to coordinate across HHS have 
done that.'' So you told Mr. Rogers, when we were discussing 
whether we were going to reauthorize this act to keep your 
position, that, in fact, everything was working great. You were 
the person in charge. You were working within HHS coordinating 
policy, direction, and you were in charge and working closely 
together.
    Dr. Lurie. And I would stand by that Statement.
    Mr. Jordan. So back to the key question. Might we be a 
little closer to having a vaccine today if you weren't allowing 
all this millions of dollars--$39 million to be spent on what 
many Americans view as questionable uses for their tax dollars, 
particularly in light of the fact we have an Ebola outbreak in 
the United States?
    Dr. Lurie. Thanks to the investments that we have had in 
biodefense and our focus and Department of Defense's focus on 
this critical issue over the past decade, we now have two 
vaccines in safety testing and at the NIH and Walter Reed.
    Mr. Jordan. Dr. Lurie, that's my point. Might they be 
further than safety testing if you hadn't wasted $39 million on 
a bunch of other things that most taxpayers think are 
ridiculous?
    In fact, one of your specific charges is, in your--can we 
put up the second slide?
    The second slide specifically mentions--this is again from 
your--Ebola. You are supposed to get ready for this. Might we 
be more ready if you hadn't spent $39 million of hard-earned 
taxpayer money on puppet shows for preschoolers instead of 
invested that in treatment and vaccines for Ebola?
    It is a ``yes'' or ``no.'' You can--might we be further 
along if that money had not been spent someplace and could have 
been applied to the question at hand?
    Dr. Lurie. I don't believe that would be the case.
    Mr. Jordan. You don't think $39 million would have helped 
us get closer to a vaccine?
    Dr. Lurie. You know, the development of a vaccine is a long 
and complicated process. It takes years----
    Mr. Jordan. Is it a costly process, too?
    Dr. Lurie. It is. And it----
    Mr. Jordan. It's a costly process?
    Dr. Lurie [continuing]. Takes years and years and years to 
do that.
    Mr. Jordan. $39 million could have been used for it. You 
are the person in charge who works closely to direct policy 
direction. Those are your words, not mine. Might we have been 
better off if, in fact, it had been used to develop a vaccine?
    Dr. Lurie. I am not in a position to comment on the overall 
NIH budget.
    Mr. Jordan. The gentleman is recognized.
    Mr. Cooper. I thank the chair.
    I think the main public health message of this hearing is 
probably counterintuitive: that, at least for U.S. citizens, we 
face probably more risk from the flu. So hopefully everyone 
will be getting their flu shot after hearing this hearing. 
There are many other public health precautions we could be 
taking, such as handwashing, things like that, which are too 
often neglected.
    Back to Ebola, the public is concerned that we are doing 
too little too late, so I would like to explore some of the 
gating factors that might limit an appropriate response.
    Mr. Torbay was very specific in his testimony, mentioning 
that probably we are meeting--our manufacturers--there are only 
two, apparently--are going to be able to meet only 35 percent 
of the estimated demand for the appropriate type of coverall. 
Could you name those two manufacturers? And we could perhaps 
explore what could be done to augment the supply of those 
essential coveralls.
    Mr. Torbay. First of all, I would like to clarify that 
those manufactures manufacture the specific type that we use. 
It is different than types other organizations use.
    And I do not remember the manufacturers, but I will be more 
than happy to provide it to the committee in writing after the 
testimony.
    Mr. Cooper. For the record.
    Mr. Cooper. There are some other gating factors. Of course, 
we all hope on the committee that we don't get to the point 
where we need augmented emergency flights by DOD to, you know, 
ship our soldiers back home, but Mr. McHenry asked an 
appropriate question. Because our men and women in uniform and 
their families want to know that there will be sufficient 
capacity to get them back home.
    I think one of the concerns of the public is that three 
health workers have been infected in the U.S. and one actually 
overseas returning. And I think we are all looking for the 
right sort of response.
    This doctor in New York--and we all hope and pray for his 
safe recovery, but when he felt sluggish on Tuesday, perhaps it 
would have been more appropriate to limit his contact with 
others, you know, since he had been exposed to some of the 
worst of the infections in Africa. But that gap from Tuesday to 
Thursday, that will take an extraordinary taxpayer effort--
contact tracing, all sorts of things--to try to limit the risk 
of exposure.
    What is the appropriate protocol for people who are known 
to be at risk during this crucial 10-day period, 11-day period, 
21-day period to try to limit contacts? Like, everyone would 
have to feel sorry for his fiance or his girlfriend or the 
other folks, you know, he was close to, when he is a skilled 
medical professional who presumably should have known, well, it 
is getting a little dicey here, and to call in when he has a 
103-degree temperature. Is there a better response than that?
    For any of the panelists.
    Ms. Burger?
    Ms. Burger. I think it is unrealistic to expect that any 
healthcare professional that is working under extremely 
stressful situations, including Tina and Amber and several 
doctors--you have to remember that they are humans. You can't 
expect them to use their common sense at that point because 
they are patients. They need a team that they report to, that 
checks on them, as Mr. Torbay has indicated, that follows them 
and makes the decisions for them so that they are no longer 
healthcare workers, they are patients that need our protection 
and care.
    And so, to that end, it would make sense to have a 
professional team monitoring them and making the 
recommendations so they can actually relax and not have to 
worry that they are contaminating or exposing anyone unduly to 
the infectious disease.
    And I think that that would really help in making sure that 
everybody that volunteers to take care of these patients and 
puts their own families' lives at risk actually is well taken 
care of after their service.
    Mr. Cooper. So you are suggesting that Dr. Spencer should 
have been viewed as a patient earlier than on Thursday and 
should have had a team of counselors to advise him because his 
judgment could not really be trusted at that point?
    Ms. Burger. Exactly. Exactly.
    Mr. Cooper. Well, that is a pretty bold recommendation.
    As far as international response is concerned, Mr. Torbay 
mentioned that U.S. and U.K. have stepped up. We have had some 
individuals in America--Paul Allen, Mark Zuckerberg--who have 
given more money individually than many nations have given. So 
that is an astonishing response.
    But what can we do to get more nations involved? I am 
thinking, for example, of France that has had involvement in 
that area traditionally. What are these other nations--what 
should we expect of them?
    Mr. Torbay. I think an all-hands-on-deck approach is really 
necessary. I think a realization that this is, again, not a 
West African problem, it is a global problem that could hit any 
country anywhere around the world, especially with travel being 
the way it is. People need to realize the threat, and they need 
to realize that any contribution that they can make actually 
will make a difference.
    As you mentioned, private foundations and corporations here 
contributed more than some countries did. And I think the U.S. 
Government should continue to put pressure on those countries 
to actually contribute to the cause.
    Mr. Cooper. Thank you, Mr. Chairman. I see that my time has 
expired.
    Mr. Chaffetz [presiding]. I thank the gentleman.
    I now recognize the gentleman from Michigan, Mr. Walberg, 
for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    General, thank you for your service.
    Probably the number-one question or concerned phone call I 
have been getting on this issue in the past several weeks comes 
from family members of our military, whether it be Active, 
National Guard, Reserve troops--a concern that what they have 
seen go on in places where they expect their family members to 
potentially have a death sentence as a result of being proud 
members of the military and signing on for that and committed 
to their efforts. Yet there are concerns that the way it is 
carried out at times, their loved ones haven't been given the 
necessary tools, armaments, rules of engagement, and all the 
rest to handle what they have been trained for, trained to do. 
That is a concern for them.
    But the biggest concern that they are conveying to me on 
those phone calls or meetings in public is that this is a 
potential--a death sentence, being sent in to combat a virus, 
and with great uncertainty because of the multitude of changes 
in protocol, at least perceived by them, coming from what they 
hear in the news, hearing from leaders in this administration, 
with responsibilities, and also the lack of information coming 
from the military on what they are doing.
    Let me ask if you would just briefly walk us through a 
daily routine of one of the soldiers that has been sent over to 
West Africa.
    General Lariviere. Congressman, thank you for the question. 
I have spoken to the commander on the ground, and I have talked 
to the folks at AFRICOM, and this question comes up quite a 
bit, actually.
    The protocols for an individual on the ground for your 
average soldier--and, again, I would like to emphasize first: 
None of the military personnel will be providing direct patient 
care. We have four lines of effort: command and control, 
logistics, engineering, and training. So we are not--the 
protocols for treating patients is not something that 
individual soldiers will be doing.
    Mr. Walberg. But they do come in contact with contractors, 
with aid----
    General Lariviere. Absolutely. And so the protocols in 
place over there, as Mr. Lumpkin can testify to since he has 
recently returned, there is a no-touch policy over there. There 
is a 3-feet separation when you are talking to local nationals 
over there. And that is being enforced both on the Liberian and 
U.S. military side quite strictly.
    In your average day for a soldier over there, it would be, 
obviously, getting up, eating chow, doing the usual morning 
routine, get your temperature taken first thing in the morning, 
and then go out to whatever task you are going to do. Again, if 
you are in the command center, that involves going from your 
building directly over to the command center and sitting at a 
computer terminal or working on the generators or whatever it 
is that you are doing inside the command center.
    If it would involve--it involves eating only food from 
approved sources, drinking mostly bottled water, or exclusively 
bottled water, and washing your hands in chlorine solution 
virtually everywhere you go.
    You go through your day. At the end of the day, every time 
you come back in the compound, at the end of the day, wherever 
you are living, you get your temperature taken again--again, 
more chlorine wash--in order to ensure that you stay Ebola-
free.
    Mr. Walberg. Will the U.S. military personnel have ZMapp or 
any other experimental drugs available to them on the ground?
    General Lariviere. There will not--there will not be any--I 
will have to take that for the record.
    General Lariviere. I am not aware that there will be any 
ZMapp available on the ground.
    The personal protective equipment will be issued to them, 
depending on their level of expected exposure. For the vast 
majority of people, that will include surgical gloves, 
overgloves, boots, and a Tyvek suit. Obviously, for the medical 
personnel, it will be more along the lines we talked about here 
for the healthcare providers.
    Mr. Walberg. OK.
    Dr. Lurie, in 2005 the Bush Administration proposed a rule 
change that would allow the CDC broad powers to confine 
individuals that are believed to be infected with deadly 
pathogen-like--the pandemic flu. President Obama withdrew this 
rule in 2010.
    Do you believe the CDC needs or should have this authority 
to ensure an infectious disease outbreak like Ebola is 
contained and controlled?
    Dr. Lurie. Thank you for that question.
    You know, I think, with every situation, we are always 
reviewing and taking a look at whether we have all the 
authorities we need to do the job. In our system of government, 
right now that authority rests with the States, and they have 
authority to do that when they think it is necessary.
    Mr. Walberg. But CDC shouldn't have that authority that 
they did have? And it could be flexible. There was certainly 
authorization. They didn't have to. Don't you think that would 
be a valuable authority to have?
    Dr. Lurie. So what I would say is I think that we are 
always learning and adjusting based on our experience, and that 
is one of the things I think we will probably be looking at as 
we move forward.
    Mr. Walberg. Well, I hope so. We are sure learning right 
now. I am not sure we are adjusting as rapidly as possible.
    And I am not--I am certain we are not giving any type of 
security to our medical workers, nurses, including our citizens 
out there, that we have a solid policy in place that is first 
and foremost protecting our citizens against these type of 
problems. And I think it is evident by the hearing today and 
hearings that will go on that you are not bringing us a sense 
of security.
    And as a Member of Congress representing a district, I am 
expressing that point of view from my citizens, who believe 
that we are less secure than we ought to be if we had used the 
policies that had been put into place.
    Mr. Chairman, I yield back.
    Mr. Chaffetz. I thank the gentleman and will now recognize 
the gentleman from Virginia, Mr. Connolly, for 6 minutes in the 
spirit of equal time.
    Mr. Connolly. I thank the chair.
    It seems to me that, based on what we know and what we are 
hearing today on the panel, the United States' objectives have 
to be twofold. Domestically, it is to protect and prevent. And 
that goal cannot be successful if we don't address the second 
goal, which is to deal with the disease at the source in West 
Africa. The two go hand-in-glove.
    And especially given the fact that we are potentially 
looking at an explosion of infection that is exponential in a 
very short period of time, the next 2 months, it seems to me 
there is enormous urgency in the latter, not to diminish at all 
the need to address the former.
    Now, we had some good news today. A nurse, Ms. Pham, has 
been declared Ebola-free. Thank God. But as Ms. Burger points 
out, dealing with the first part, protect and prevent, it 
wasn't thanks to the protective gear and the protocols and the 
guidelines that were in place at her hospital. While CDC was 
giving us assurances how hard it was to contract the disease, 
``We're pretty confident we've got things in place,'' and so 
forth, two healthcare workers, including Ms. Pham, came down 
with it.
    Dr. Lurie, in retrospect, do you think perhaps, not 
intentionally of course, but in a zeal to reassure the public, 
CDC misstepped?
    Dr. Lurie. You know, I think that CDC has said that some 
missteps have been made. But they have taken a quick, hard 
look----
    Mr. Connolly. But isn't it----
    Dr. Lurie [continuing]. At the experience. They have 
pivoted, as you see----
    Mr. Connolly. Dr. Lurie, I am asking--I am asking a public 
information, public health question. I have had to deal with 
that in my county, when I was the head of my county, during 
anthrax attacks. And one rule I had was: Never reassure the 
public when you don't know. Never do that. Because when you do 
that, you damage your credibility.
    And you heard it here today from some of the questioning on 
the other side of the aisle. It gave them an opening to attack 
the credibility of the administration by extension because the 
CDC was not capable of saying, ``Not yet. We don't know. We're 
still--it's a work in progress.''
    What is so horrible about doing that?
    Dr. Lurie. I think right now, if we look at the situation, 
we see that it is a work in progress. And what you see is that 
we are taking constant steps to adjust as we learn more.
    Mr. Connolly. Ms. Burger, you indicated that you would 
welcome a law establishing--if not an Executive order, but 
preferably a law because that codifies it--establishing uniform 
guidelines, uniform protocols, so we don't have this up-and-
down myriad of procedures at hospitals depending on where you 
live. Is that correct?
    Ms. Burger. You left out one critical word, which is 
mandatory optimal standards----
    Mr. Connolly. Yes.
    Ms. Burger [continuing]. For personal protection.
    Mr. Connolly. Yes. I----
    Ms. Burger. The CDC guidelines are merely guidelines, and 
all 5,000 hospitals in the USA get to pick and choose what part 
of the guidelines they implement and----
    Mr. Connolly. I take----
    Ms. Burger [continuing]. The personal protection.
    Mr. Connolly. I take your point.
    Dr. Lurie, would the administration welcome such 
legislation? And/or is the President contemplating such 
Executive action?
    Dr. Lurie. So one of the things I think to keep in mind is 
that the Federal Government does not license or regulate 
hospitals in this way. Hospitals are licensed and regulated 
primarily by the States. But I think it is fair to say at this 
point that no hospital wants to see its healthcare workers 
infected.
    The CDC guidelines now provide a couple of options for safe 
personal protective equipment in large part because there is 
probably not a one-size-fits-all solution. It is important for 
people to be able to practice in the equipment that they are 
using and comfortably using day-to-day, provided that it meets 
the safety standards that CDC has articulated.
    Mr. Connolly. OK. I am not sure what that means in terms of 
whether the administration is contemplating an Executive order 
or whether you would welcome some legislation that would make 
it mandatory, as Ms. Burger suggests. But we will be in touch, 
I am sure.
    Final set of questions.
    Mr. Torbay, in the United States, there are 245 doctors per 
100,000 population; in Liberia, 1.4; in Guinea, 1--10; Sierra 
Leone, 2.2. Health spending per capita, $8,895 here in the 
United States; $65 in Liberia; $32 in Guinea.
    CDC says if we don't achieve 70 percent of isolation of 
existing Ebola victims in the affected countries, the number of 
victims or people with Ebola in these areas could reach--could 
reach--1.4 million by January 20th, the day roughly around when 
the President gives his State of the Union address. That is 
astounding. And whatever problems we have with the relatively 
limited number of Ebola patients in the affected regions, 
obviously it becomes enormously magnified when you are looking 
at that kind of number.
    How in the world do we contain this before it becomes 
explosive? It is already the largest Ebola epidemic ever 
recorded, but to go from roughly 10,000 or so to 1.4 million in 
the next 2 1/2 months is very--I mean, it is jaw-dropping.
    Mr. Torbay. Thank you for your question.
    There are steps that could be taken and that are being 
taken to contain this and to hopefully never achieve that 1.4 
million number. And that includes isolation of patients, quick 
isolation of patients the minute we know that they develop 
symptoms, treatment, referral to the Ebola treatment units, 
such as the one that International Medical Corps is running in 
Bong County----
    Mr. Connolly. And if I could interrupt you--and, Mr. 
Chairman, I promise I am done after Mr. Torbay.
    CDC says if you isolate 70 percent now, you achieve 
complete abatement of Ebola in the affected regions. I mean, in 
other words, then we are on a path to the complete reversal of 
the progress of the disease. But if we don't do that, we are 
headed in the opposite direction.
    Sorry.
    Mr. Torbay. In addition to treatment, community awareness 
and education is critical.
    But, also, we cannot forget the need for regional 
preparedness outside of those three countries. We know of one 
patient in Mali already. Yesterday, a 2-year-old girl was taken 
into a hospital in Mali.
    Regional preparedness is critical. And that includes 
training of teams that could actually treat Ebola, detect, 
burial teams, contact tracing. It includes consistent community 
messaging so there are no two conflicting messages that go out, 
as well as stocking of supplies that are needed in case of an 
outbreak. This is critical, as well, and this is an area that 
is being ignored in terms of preparedness.
    Mr. Connolly. Thank you.
    And, Mr. Chairman, thank you for generousness.
    Mr. Chaffetz. I thank the gentleman.
    I now recognize the gentleman from South Carolina, Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    I want to start, Mr. Chairman, by thanking nurses and 
doctors, hospital workers, soldiers, and others for their 
courage and their service and their sacrifice. Most of us, Mr. 
Chairman, in life run away from danger and disease and risk, 
and very few people are willing to run toward it. So I want to 
start by thanking that group of people.
    Dr. Lurie, I want to read you a quote, and you tell me if 
you can tell me who the author of this quote is.
    ``Beginning with the development of a strategy, my role can 
be defined as helping our country to be ready for any kind of 
adverse public health event, including a response to any 
challenges the future may bring.''
    Do you know who said that?
    Dr. Lurie. Yes, I do.
    Mr. Gowdy. Who?
    Dr. Lurie. I did.
    Mr. Gowdy. You did. That is exactly right, in a Penn 
Medicine article.
    And your bio page says that you are the Secretary for 
Preparedness and Response, and your work has included 
evaluating public health preparedness, conducting 32 tabletop 
exercises on hypothetical crises, such as smallpox, anthrax, 
botulism, plague, pandemic influenza.
    Another story on you and your career, which is an 
incredibly commendable career, said your job is to plan for the 
unthinkable. ``A global flu pandemic? She has a plan. A 
bioterror attack? She's on it. Massive earthquake? Yep.'' She's 
got a plan. It's a mission that includes both science and a 
communication strategy.
    So I was sitting there, Dr. Lurie, thinking, here we have a 
doctor with an incredible background in medicine, who also 
happens to have planned for crises like Ebola, whose job 
description also includes communication strategy. So why in the 
hell did the President pick a lawyer to be the Ebola czar and 
not you?
    Dr. Lurie. So I appreciate your questions. Before I answer 
your question, can I take just one moment to clarify my answer 
about the quarantine question? Because I think I didn't 
understand it fully.
    CDC has ample quarantine authority to do what it needs to 
do. I think the--and it has used those authorities many, many 
times. The proposed regulation would have refined the process 
we have used, but the underlying statute already gives CDC the 
authority that is needed.
    Mr. Gowdy. OK. You----
    Dr. Lurie. So with that clarification, I just wanted to----
    Mr. Gowdy. So the record is now complete with respect to--
--
    Dr. Lurie. Thank you.
    Mr. Gowdy [continuing]. Your position on----
    Dr. Lurie. Right.
    Mr. Gowdy [continuing]. On quarantine.
    Now I want the record to be complete on why in the world 
the President picked a dadgum lawyer to head the Ebola crisis 
instead of somebody with your vast and varied background.
    Dr. Lurie. And I appreciate the vote of confidence.
    The role of the Ebola coordinator in the White House is a 
whole-of-government coordination role.
    Mr. Gowdy. Well, I appreciate that, Dr. Lurie. But Mr. 
Klain is not a doctor. He is not an osteopath. He is not a 
nurse. He is not an epidemiologist. He doesn't have a 
background in communicable disease. He doesn't have a 
background in infectious disease. He doesn't have a background 
in West Africa.
    So how in the world is he the best person to be the Ebola 
czar and not you or--and I don't want to hurt her career, I do 
not want to hurt Secretary Burwell's career, and I fear that I 
will by complimenting her. But she is an incredibly bright 
person. One of the more capable people I have met in the last 
10 years is your boss, the Secretary of HHS. Now, we disagree, 
in fairness to her, on lots of policy, but she actually has a 
background, through her work, The Gates Foundation, in global 
health.
    You are a doctor. I mean, if this were an outbreak of 
people who don't have wills in West Africa or if this were an 
outbreak on contested elections in West Africa, then I would 
say, yes, go hire Mr. Klain, but it is not. It is a medical 
crisis. So why not you?
    Dr. Lurie. So right now I have a full-time job doing my job 
in the Department of Health and Human Services. I really 
appreciate the vote of confidence. And I have a lot of 
confidence in Mr. Klain.
    Mr. Gowdy. Well, how about another doctor? How about 
somebody who is an expert in infectious disease or an expert in 
West Africa or the delivery of health care? I mean, God forbid 
we pick somebody with a background in medicine instead of a 
dadgum lawyer. And in the interest of full disclosure, I am 
one. But----
    Dr. Lurie. So, with respect, I think that the role of the 
coordinator at the White House doesn't require a doctor. It 
requires somebody who is really expert at coordination and 
bringing the parts of government together to enhance the 
coordination.
    Mr. Gowdy. Well, I am going to make you this promise, OK? 
And I want you to hold me to it, OK? The next time there is an 
opening on the Supreme Court, I want you to see whether or not 
the President considers a doctor or a dentist for that job.
    And we actually are about to have a vacancy for our 
Attorney General, and I want you to consider or be mindful of 
whether or not he considers maybe, like, a tattoo artist to be 
our next Attorney General. I promise he will not. He will pick 
a lawyer for the Supreme Court, and he will pick a lawyer to be 
the head of the Attorney General--Department of Justice.
    I am just lost as to why he wouldn't pick somebody with a 
medical or healthcare background to be the Ebola czar. I mean, 
can you understand why people might possibly think this could 
perhaps be a political pick instead of a medical/science/health 
pick? Can you understand how people might be just a little bit 
suspicious?
    Dr. Lurie. I can understand the public's concerns about a 
whole variety of issues. I believe that Mr. Klain has 
tremendous experience in doing the job that he was chosen to 
do.
    Mr. Gowdy. Well, cite me all his medical background then. I 
was going to let you go, but you said he has tremendous 
experience. Cite me all of his medical, infectious disease, 
communicable disease, healthcare delivery background.
    Dr. Lurie. You know, one of the terrific things about the 
way the government works together is that experts come together 
all the time. There is tremendous knowledge----
    Mr. Gowdy. I am going to take that answer as that he has 
none.
    Dr. Lurie. There are a tremendous number of doctors that he 
has at his disposal. He has me, he has Dr. Frieden, he has Dr. 
Fauci, he has Dr. Collins. You could go on and on and on.
    Mr. Gowdy. Yes, and it would just make--but you know what? 
We had access to all those people before we had Mr. Klain. All 
those people worked for the government before the President 
hired Mr. Klain, didn't they?
    Dr. Lurie. And----
    Mr. Gowdy. So why pick a lawyer to head our response to 
Ebola? It just--you know, color me cynical, it just appears to 
be political.
    But, with that, Mr. Chairman, I would yield back----
    Mr. Connolly. Would my friend yield?
    Mr. Gowdy. Of course I will yield to the gentleman from 
Virginia.
    Mr. Connolly. Well, I just wanted to join my friend in 
calling for a nonlawyer appointment to the Supreme Court. It 
would be the healthiest damn thing we have had in the last 50 
years. Thank you.
    Mr. Gowdy. Are you applying? Are you interested?
    Mr. Connolly. No.
    Mr. Chaffetz. I thank the gentleman.
    I will now recognize the gentlewoman from Illinois, Ms. 
Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Dr. Lurie, are you trying to say that we need someone good 
at coordinating and managing and really cutting through a lot 
of the BS?
    Dr. Lurie. That is exactly right.
    Ms. Kelly. Thank you.
    I want to thank the panel for meeting with our committee to 
discuss this important health crisis issue.
    And I want to let you know that my thoughts and deep 
appreciation are with all the healthcare professionals dealing 
with this crisis and those in the audience. And because I 
represent Illinois, a special shout-out to those from Chicago, 
the Chicagoland area.
    My questions are about the DOD's role in West Africa.
    Secretary Lumpkin, I know there are some that have 
commented that there is no reason to involve the U.S. military 
in this type of humanitarian crisis. Why is the U.S. military 
so critical to getting the epidemic under control in West 
Africa?
    Mr. Lumpkin. Thank you for the question.
    Again, we are in direct support of USAID and their whole-
of-government efforts. USAID came to us because of our speed 
and their scale with response. We can mobilize quickly. We can 
instill command and control, provide the infrastructure. We 
have the ability to do logistics. We do it very well, both 
strategically and tactically, to move supplies.
    The one thing you have to keep in mind, within Liberia, 
they get about 200 inches of rain a year. When we were there, 
it was raining, you know, 6 to 8 hours a day some days. In that 
time, many of the roads are impassable except by foot. And what 
goes by foot is the Ebola virus, as well. So there was 
inaccessibility to the various areas. We have the ability to 
reach and get those areas and to support USAID.
    We have the ability to do construction and to build these 
Ebola treatment units. When I was there, I had a chance to get 
on the ground and talk to some U.S. Navy Seabees who were 
building the Monrovia medical unit. And working through the 
rain with the equipment there to get what looks to be 
impossible, they make possible.
    Then the final piece is we can do scaled training. We can 
bring a boot-camp-like training to train up to 500 healthcare 
workers per week to man and to staff these Ebola treatment 
units. And so we bring the capacity in order to do that.
    So, again, we are an interim solution as we roll in there 
to support USAID until the international community can mobilize 
in order to take over our efforts.
    Ms. Kelly. So you feel you have extensive experience in 
conducting humanitarian efforts like this.
    Mr. Lumpkin. Well, we have supported USAID on numerous 
occasions. We did it in Haiti. We have done it in places--Japan 
just several years ago, the Philippines most recently. The team 
on the ground we have worked with before. The team lead from 
the Disaster Assistance Response Team has extensive experience 
working with the Department of Defense. And we are very tightly 
lashed up, and I would say it is seamless.
    Ms. Kelly. OK. Thank you.
    General, can you provide us with a status update on the 
operations in the region and let us know what your biggest 
challenges are?
    General Lariviere. Yes, ma'am. Thank you for the question.
    As Mr. Lumpkin said, we were asked to do this mission 
because of our unique capabilities. As we are here today, we 
have 698 personnel on the deck, split between Liberia and 
Senegal. We are expecting here, in the next 24 hours, the 101st 
Airborne Division will complete its movement into country and 
we will begin a rotation for them to take over the command and 
control piece of this. Equipment continues to flow through our 
immediate staging base in Dakar, Senegal.
    As Mr. Lumpkin said, we were asked to do engineering. USAID 
asked us to be prepared to buildup to 17 Ebola treatment units. 
We have actually been asked to build 12, and 3 are currently 
under construction.
    And as for the training effort, we have identified the 
Paynesville National Training Center in Monrovia as the site 
where we will bring in military trainers to begin training 
healthcare workers here in the next couple of weeks.
    Ms. Kelly. For both of you, if this epidemic is not 
contained and it spreads further over the continent, do you 
agree that this really affects international security?
    Mr. Lumpkin. Again, to reiterate my opening comments, this 
is a national security priority for the United States that 
truly has global impacts.
    So we have an opportunity right now to flood the zone, to 
make sure we have the capabilities in country, working as a 
whole of government, and mobilize the international community 
to respond while it still is at a point, while dire--if it gets 
worse, it is going to be harder to manage. So we need to take 
this opportunity we have right now.
    Ms. Kelly. General, did you have anything?
    General Lariviere. Nothing additional.
    Ms. Kelly. Well, I want to thank you both for your 
testimony and for your service to the country.
    And, again, a deep appreciation to all the healthcare 
professionals.
    Thank you. I yield back.
    Mr. Chaffetz. I thank the gentlewoman.
    I will now recognize myself for 5 minutes.
    And I want to thank the six of you for your dedication and 
commitment to fighting this and for the efforts here in the 
United States of America.
    And to the men and women who serve on the front lines, 
those healthcare workers and first responders, I join with Mr. 
Gowdy in thanking those that will actually run to the sounds of 
the guns in the crisis that happens. They are amazing 
individuals, and they have our thoughts and our prayers and our 
hearts behind them.
    I have a few questions, particularly on the military side 
of things. I don't know whether to start with Mr. Lumpkin or 
the General. But help me understand their proximity to the 
challenge here. How many USAID personnel are they supporting?
    Mr. Lumpkin. I don't have that number off the top of my 
head, and I want to be accurate. So I would like to take that 
back----
    Mr. Chaffetz. Do you have a range? I mean, is it hundreds? 
Is it----
    Mr. Lumpkin. It is so integrated--the disaster----
    Mr. Chaffetz. OK. If you will get back to me.
    Mr. Lumpkin. I will be able to do that.
    Mr. Chaffetz. My understanding, Doctor--we've got one 
doctor here on the panel--is that there is a 21-day window in 
which a person who may have been exposed to Ebola will actually 
potentially come down with Ebola and start to show signs of 
having this virus. Is that correct, 21 days?
    Dr. Lurie. That is correct.
    Mr. Chaffetz. So, General, why do we only hold our troops 
for 10 days before we release them to bring them back to the 
United States?
    General Lariviere. Yes, sir. Thanks for the question. And I 
can understand the confusion on this, but let me--let me see if 
I can make it clear.
    To start, the 21-day period for monitoring has to take 
place outside the infection zone. For us, that will be in the 
United States.
    Out of an abundance of caution, prior to departure--in 
order to reduce their risk, commanders will be allowed to 
remove their personnel from whatever jobs they were doing for 
up to 10 days prior to departure from Liberia just to limit 
their exposure and provide an extra layer of protection. 
However----
    Mr. Chaffetz. I am going to need further explanation on 
this----
    General Lariviere. Right.
    Mr. Chaffetz [continuing]. Because I don't understand the 
10 days when the science says the 21 days, but----
    General Lariviere. Well, the 21 day takes place--well, the 
21-day monitoring for U.S. Military personnel will take place 
Stateside after they have left in order to ensure that they are 
Ebola-free, just as was described previously for other 
healthcare workers.
    Mr. Chaffetz. Let me understand, Doctor. The written 
materials that I do see out there talk about fever, which is 
monitored twice a day in the case of the military, and other 
symptoms. What are the other symptoms?
    Dr. Lurie. Other symptoms might include nausea, diarrhea, 
red eyes, muscle aches, fatigue.
    Mr. Chaffetz. So any one of those symptoms could be 
happening and not have a fever and you could have the Ebola 
virus, correct? You could have fatigue, for instance, before 
you have a fever.
    Dr. Lurie. That is correct, but you really only transmit 
the disease when you are febrile.
    Mr. Chaffetz. So if you have one of these symptoms and you 
are coming through Customs and Border Patrol, for instance, is 
one of my deep concerns. We've got about a million people a day 
that come through the United States border. We've got these 
Customs and Border Patrol agents and officers that--they are 
wonderful people. I mean, they are dedicated and committed at a 
tough and difficult job. And we are asking them to make an 
assessment of somebody in about a minute or so as to whether or 
not this person potentially has Ebola.
    How in the world are we going to train them so that they 
can have these assessments?
    Dr. Lurie. So let's be clear about what's happening now. 
First, all travelers are funneled--from West Africa are 
funneled to five major airports, where people are specially 
trained to do tightened screening. If, in fact, they have 
symptoms of Ebola or they have a fever, then they get referred 
to secondary screening. And then, additionally, they are----
    Mr. Chaffetz. But that didn't work.
    Dr. Lurie [continuing]. Interviewed by staff----
    Mr. Chaffetz. It didn't work. Are you telling me that it 
worked? Did it work in the case of Dr. Spencer? Did it work?
    Dr. Lurie. So the reason that we now have moved to active 
monitoring of all people that come back from these countries to 
the United States is exactly for this reason, so that if people 
don't have a fever when they come----
    Mr. Chaffetz. You see where we lack some confidence, right?
    Dr. Lurie. If people don't have a fever when they come 
through--when they come through the CBP, Customs and Border 
Patrol, stations, we still believe they need to be actively 
monitored for 21 days. That is exactly what happened.
    Mr. Chaffetz. But active--this active----
    Dr. Lurie. And Dr. Spencer took his temperature. At the 
earliest moment, as I understand it, he called authorities and 
was isolated very expeditiously.
    Mr. Chaffetz. So you don't think he was contagious those 48 
hours before?
    Dr. Lurie. From what we understand, people are infectious 
when they have a fever, not beforehand.
    Mr. Chaffetz. So why did you close the bowling alley? Why 
did they--why did they, you know, put other people in 
quarantine? If he is not contagious because he barely showed a 
fever and he is a doctor and he says he didn't have a fever 
until that morning, why did you have to shut down the bowling 
alley?
    Dr. Lurie. You know, it is a good question, and I think it 
gets to your issue of confidence. We really want to move in an 
abundance of caution. The bowling alley is closed so that it be 
cleaned and decontaminated out of abundance of caution. And I 
expect it will be open and people will be bowling----
    Mr. Chaffetz. So he could have gotten----
    Dr. Lurie [continuing]. In the not-too-distant future.
    Mr. Chaffetz. He could have gotten sweaty, right, and you 
can transfer this via sweat, right? That secretion could 
actually hold the Ebola virus for some time, correct?
    Dr. Lurie. So the bowling alley is being cleaned out of an 
abundance of caution, yes.
    Mr. Chaffetz. I just don't have the confidence that we are 
dealing with people who have a known--we are talking about 
people who have come in direct contact with Ebola patients. Why 
we wouldn't hold them for a 21-day period to make sure that 
their loved ones, themselves, the people of this country--I 
don't understand why we wouldn't put that travel restriction in 
place, why we don't get a little bit more strict in putting 
quarantines--the self-quarantine didn't work. It didn't work in 
the case of Dr. Spencer, and he is one of the great people of 
this earth. I mean, he went to go help save people's lives, and 
he is an emergency room physician, my understanding.
    So that is the concern. That is----
    Mrs. Maloney. Will the gentleman yield?
    Mr. Chaffetz. Sure.
    Mrs. Maloney. Thank you.
    I would like a clarification from the Major on one of your 
responses to the chairman's questions. You said that the 
quarantine cannot happen in the country of origin or the 
country of infection and that you would quarantine him, as I 
understand from your answer, 10 days in, say, Liberia before 
you would allow them to come to the United States.
    My first question is, why can't you quarantine----
    Mr. Chaffetz. We don't have first questions. Ask the 
question.
    Mrs. Maloney. Clarification.
    Mr. Chaffetz. We have to yield. People have flights----
    Mrs. Maloney. Clarification.
    Mr. Chaffetz. Yes.
    Mrs. Maloney. Clarification. Why can't you quarantine in 
the country of infection, particularly if we are sending over 
military that could build a quarantine unit?
    General Lariviere. Ma'am, I will defer to the doctors. But 
what our infectious disease personnel tell us, in order to be 
absolutely certain that everybody is Ebola-free, it has to be 
outside the infection zone. And for all intents and purposes, 
the entire country of Liberia is an infection zone. But I would 
defer to the doctor for clarification.
    Mr. Chaffetz. Go ahead.
    Dr. Lurie. So the CDC's guidelines right now indicate that 
if you have no risk, if you have been in--if you have not been 
exposed to other people, you haven't touched other people, you 
haven't cared----
    Mr. Chaffetz. Her question was about military personnel who 
are in the infection zone who did have contact.
    Dr. Lurie [continuing]. You haven't cared for sick Ebola 
patients, and if you are in personal protective equipment, you 
haven't had a breach of personal protective--you haven't had a 
breach of your personal protective equipment, that, depending 
on the category, you are at low or no risk.
    Mr. Chaffetz. I am not buying it. I am just not buying it.
    Dr. Lurie. Well----
    Mr. Chaffetz. My time has expired.
    Dr. Lurie. OK.
    Mr. Chaffetz. We will go to the gentleman from 
Pennsylvania, Mr. Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    I want to followup on that.
    And thank you for joining us today, Secretary Lumpkin and 
Major General Lariviere.
    But, you know, the expression ``an abundance of caution'' 
has been used here in this room here today. And what I am 
wondering specifically--and I will open that up to either of 
you gentlemen--is there any reason why this proposal--you know, 
Mr. Lynch brought it up, Mr. Connolly brought it up, Mrs. 
Maloney brought it up, I believe Mr. Chaffetz brought it up. Is 
there any reason why we wouldn't just want to use a 21-day 
waiting period in West Africa before we bring people back to 
the United States?
    Mr. Lumpkin. Our 21-day monitoring process is done at the 
unit. It is done twice a day, as far as where they have direct 
contact with a healthcare professional for everybody that comes 
home. And it is commensurate with guidelines that other 
organizations are following. So we are following the same 
guidelines as the--that CDC and others recommend.
    Mr. Cartwright. When you say ``in the unit,'' you mean in 
the unit whether it's in West Africa or in the United States.
    Mr. Lumpkin. No, no. Well, there is in-country monitoring, 
and there is monitoring once they return home.
    Mr. Cartwright. OK.
    Mr. Lumpkin. So once they return back to the continental 
United States or their port of origin, so to speak, they will 
go through a 21-day process where twice a day, 12 hours apart, 
they will report to their unit and do positive discussion with 
the healthcare provider and have their temperature taken to see 
if--to make sure that they don't become febrile or show any 
symptoms.
    But keep in mind, going back to the risk of the Department 
of Defense personnel in country, because we are not providing 
direct health care to Ebola patients, our risk is much, much 
lower than those that do to begin with.
    Mr. Cartwright. All right. And you are telling--you are 
answering my question with what we are doing, and I am asking 
you, why couldn't you do it a little differently? Why couldn't 
you do the 21-day waiting period in country just to be extra 
careful that we are not bringing this virus back to the United 
States?
    General Lariviere. Yes, sir. Again, everybody in country 
will be monitored twice a day for their temperature. So, for 
all intents and purposes, we are checking--we are basically 
doing what the CDC recommends every single day while we are in 
country by having their temperature taken twice a day.
    Immediately prior to departure, we will have personnel--we 
will go through a questionnaire to find out if, in the last few 
days right before they left, if they have been in more--
possibly could have come into contact and be anything other 
than a low-risk category before we transport them home to start 
the 21 days in CONUS.
    The 10-day period, which is causing all the confusion, was 
merely an additional period in which case they would be at a--
be removed from whatever jobs they were doing, if they were out 
and about the town, in order to further reduce their possible 
risk.
    Mr. Cartwright. Well, General, I thank you for that answer, 
but, again, you are telling me what the plan is right now. And 
I am asking you, why couldn't you be a little more careful with 
the plan, go a little more overboard with the protection and 
extend the in-country waiting period to 21 days rather than the 
10 days?
    And it seems to me that you gentlemen are deferring to the 
CDC on this. Are you?
    General Lariviere. Well, sir, it is the CDC; it is also the 
U.S. military infectious disease doctors who, in consultation 
with their interagency partners, are the ones that----
    Mr. Cartwright. Well, let me cut it short, then. May I ask 
you gentlemen to please consult with those sources and ask them 
to consider a 21-day in-country waiting period just to be in a 
real abundance of caution?
    Mr. Lumpkin. We will do that.
    Mr. Cartwright. I thank you for that.
    I also wanted to ask: You know, we have heard about this 
terrible potential for the spread of this disease in West 
Africa. What did we say? By January, a million infections or 
more. The suffering, the horror there.
    And one question I have is, No. 1, is 3,200 American 
service men and women enough to properly train to defeat this 
Ebola enemy?
    Mr. Lumpkin. Based on the requirements that have been asked 
of us from USAID, who we are supporting in country, the answer 
is yes.
    Mr. Cartwright. And then the next question is, are there 
enough trainees, are there enough healthcare workers in West 
Africa that we can train enough people to take care of the 
problem?
    Mr. Lumpkin. That is a question I would have to defer to 
the USAID and their expertise on the ground to----
    Mr. Cartwright. Would anyone on the panel like to take that 
question?
    Mr. Torbay. There are health workers, not necessarily from 
Sierra Leone and Liberia, from the U.S., from other African 
countries, from Asia, that we are bringing to the country, as 
well, to help with the treatment and the containment. And we 
are hoping, with the training that is being provided and the 
supplies and the momentum that is actually now ongoing, that 
actually that should be sufficient.
    That being said, for the time being, it is still really 
difficult to encourage people to go and work in West Africa, 
given the conditions on the ground but also given the 
conditions that they might actually stay in West Africa for a 
longer period, as well. So this is why we are trying to balance 
it in terms of going there but, at the same time, make sure 
that they can actually leave and go back home when they can.
    Mr. Cartwright. Well, my time has expired. I thank you.
    Mr. Chaffetz. All right. I thank the gentleman.
    Quickly, Mr. Lumpkin, are there any United States 
personnel, military or USAID, that have any symptoms of Ebola?
    Mr. Lumpkin. Not to my knowledge.
    Mr. Chaffetz. Thank you.
    I now recognize the gentleman from Texas, Mr. Farenthold.
    Mr. Farenthold. Thank you, Mr. Chairman.
    I want to followup, before I go into my line of 
questioning, with Dr. Lurie.
    You talked about an overabundance of caution as to why we 
closed the bowling alley, as to why the airline took out the 
seats and reupholstered and recarpeted. We are hearing a lot 
about an overabundance of caution.
    From a purely health standpoint, wouldn't an overabundance 
of caution include an air travel ban, complete, to the affected 
countries, like we have seen in some European countries?
    Dr. Lurie. No, I don't believe it would.
    Mr. Farenthold. All right. I am going to respectfully 
disagree.
    Now, I am glad we are having this hearing today. This is my 
second hearing on Ebola, and I was actually really disturbed 
during the first hearing that the Homeland Security Committee 
had in Dallas to see the CDC pointing fingers at CBP, CBP 
pointing fingers at the National Institutes of Health.
    It is one of the reasons I said we needed to appoint 
somebody to be the point person, someone where the buck stops. 
And the President chose Mr. Klain. I am going to join with Mr. 
Gowdy in being a little skeptical of putting a lawyer instead 
of a doctor in.
    But Josh Earnest told reporters ultimately it will be his 
responsibility to make sure that all the government agencies 
who are responsible for aspects of this response, that their 
efforts are carefully integrated. He will also be playing a 
role in making sure decisions get made.
    I think one of the key things in that role is working with 
Congress, and I think he should be here today or at a hearing 
to be called very soon. We are the ones that sign the checks. 
We've already signed a $750 million check to fight this Ebola. 
I think he needs to be here.
    I also--part of the finger-pointing we saw was the CDC 
saying the nurses in Texas broke protocol, when I think they 
were following, to the best of their ability, what they were 
able to do. I think it was entirely inappropriate they threw 
the nurses under the bus. My wife is a nurse, and she and I 
were both--were individually hurt and offended by that. I think 
these nurses were doing the best they could.
    And, listen, an Ebola patient isn't always going to present 
at an Ebola center. They are going to show up at their local 
hospital when they show symptoms. Every hospital needs to be 
trained.
    And, Ms. Burger, am I correct in saying your testimony is--
what was the percentage that weren't prepared?
    Ms. Burger. I believe it's 85 to 86 percent. But you have 
to remember these are voluntary guidelines; they are not 
mandates. And until there is a mandate from Congress or the 
President, we will continue to have issues.
    Mr. Farenthold. I was thinking maybe--you know, I am not a 
big fan of big government regulation--maybe the joint 
commissions or the States.
    Mr. Chairman, I would also like to enter for the record a 
Statement from Texas Health Resources. They were also thrown 
under the bus, and this is one of their responses to that. So 
I'd like to enter that for the record.
    Mr. Chaffetz. Without objection, so ordered.
    Mr. Farenthold. Now, we have talked about who is not here. 
I want to talk--since we do have Mr. Lumpkin and the General 
here, I wanted to ask a couple of quick questions about our 
military involvement.
    General, why did you join the military?
    General Lariviere. To serve my country. And my dad was a 
Marine.
    Mr. Farenthold. And, traditionally, the military's job has 
been to serve and protect this country with guns and bombs. I 
understand the mission is expanding and you all are out now 
building health facilities in Ebola-plagued areas. Very 
laudable, but is this really what the military was designed 
for?
    It seems like if you wanted to build healthcare facilities 
and help countries, you would have joined the Peace Corps and 
not the--or USAID and not the military.
    General Lariviere. Sir, as Mr. Lumpkin Stated, this is a 
national security threat. And, as has been Stated previously, 
the idea has been to fight this overseas so it doesn't further 
come back here----
    Mr. Farenthold. But isn't----
    General Lariviere [continuing]. On our--I'm sorry.
    Mr. Farenthold. All right. And is the military the only 
organization that can build hospitals, morgues, and treatment 
facilities? Aren't there thousands, if not hundreds of 
thousands, of contractors worldwide that can do that?
    General Lariviere. Absolutely. But we were asked to use our 
unique capabilities, as was Stated earlier, to jumpstart this 
process, get it in place, so we could turn it over to those 
organizations.
    Mr. Farenthold. And so are these facilities going to be 
near existing facilities for Ebola patients? Are they going to 
be greenfield facilities or brownfield facilities? Are the 
locations nearby where patients are going to be congregating?
    General Lariviere. We have been asked to build treatment 
units in locations that were coordinated between USAID and the 
Government of Liberia.
    Mr. Farenthold. So very possibly you could be working on an 
expansion to an existing hospital that is treating Ebola 
victims within those guidelines.
    Mr. Lumpkin, you look like you want to jump in.
    Mr. Lumpkin. No, of the ones we've been asked to construct 
per USAID, none of those are expansions. They are all unique, 
new----
    Mr. Farenthold. OK. And----
    Mr. Lumpkin [continuing]. Ebola treatment units.
    Mr. Farenthold. So, then, you talked a little about PPE. 
What personnel would be wearing PPEs? I mean, you've got 80-
degree-plus, highly humid conditions in these countries, and 
the natural inclination is going to be, why do I need to wear 
this Tyvek suit?
    General Lariviere. That is a great question.
    So the protocols that will be followed are that all U.S. 
military personnel will be issued a basic set of PPE that they 
will have with them in country, but because of the temperatures 
and because, quite frankly, of the jobs they will be doing, 
they will not be required to wear it all the time.
    Mr. Farenthold. OK.
    And I've got one quick last question. There has been a lot 
of confusion about this 10 days and then 21 days. After the 10 
days in Africa, they are going to come back to the United 
States and go to their unit and be monitored in the unit. 
Between the 12 hours that they are not being monitored by their 
unit, are they going to be able to ride the subway, see their 
girlfriend, go to a bowling alley, and take an Uber?
    General Lariviere. They will be on the military facility. 
They will be allowed to go home, either to the barracks or to 
their families. But, obviously, every 12 hours will limit their 
ability--having to report to the unit every 12 hours will limit 
their ability to travel much further off base than you could go 
in order to get back for evening formation.
    Mr. Farenthold. But you will be--all right. Thank you very 
much. My time has expired.
    Mr. Chaffetz. And I thank the gentleman.
    I now recognize the distinguished gentleman from Illinois, 
Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    And I want to thank Chairman Issa for calling this hearing. 
I think it has been very instructive, very helpful.
    And I want to thank all of the witnesses for appearing and 
being with us.
    With O'Hare Airport being one of the busiest in the world 
and with Chicago, where I live, being an absolute 
transportation hub, where millions of people come to and 
through our city each and every week, I first of all want to 
commend our public health officials, under the leadership of 
the Illinois Department of Public Health, and our city 
officials and Homeland Security for what they have done in 
terms of preparation to screen individuals as they come, to 
have places they can go should anything be detected. Our 
hospitals have been fully cooperative, and I commend all of 
them.
    I also want to commend all of our health workers who are 
the frontline individuals. Because while others can stand and 
cheer from the sidelines, you are in the arena. You are 
actually there; you are not the spectators.
    I have heard a great deal of information--and I am 
delighted to live in a country that is willing to use some of 
its resources to be available in such a way that it does play 
and understands an international role. So I want to thank AID 
and our military for being in West Africa.
    I agree with those who recognize that we don't have enough 
resources there to actually do all that we can and all that is 
needed to be done. But I commend us for the effort, and I 
commend us for what we are indeed doing.
    I think I have a little more confidence and a little more 
faith in the CDC and our health professionals because every 
day, as I understand it, our protocols are under review, that 
whatever has been established, that's for right now, but with 
every incident, we are learning new approaches, new techniques, 
and we are putting those into play. And so I am not sure that I 
have as much gloom and doom, because we have had crises before 
and we've found a way, and we will find a way to stay ahead of 
this one.
    Mr. Davis. Dr. Lurie, let me ask you, notwithstanding the 
advances that we have made in medical science, infectious 
disease continues to cause millions of deaths every year 
throughout the world. And we know that the primary strategy has 
been vaccination, developing vaccines. Let me ask, are there 
other strategies and other approaches that are being used 
relative to human behavior activity? I always remember my 
mother, who didn't have any medical training, but she always 
told us that an ounce of prevention was worth much more than a 
pound of cure. Are we able, and are we doing things that can 
help prevent and arrest the impact of these infectious 
diseases?
    Dr. Lurie. I very much appreciate your question, 
Congressman. As a primary care doctor, I see--every time I see 
a patient--how important communication is, both with my 
patients and with my community. One of the challenges of 
dealing with this outbreak in West Africa has been that there 
are a lot of deeply held beliefs. There has not been sufficient 
information about how one contracts this disease or how to 
prevent oneself from getting it. And I believe that there has 
been a tremendous effort at public education. And I expect that 
that's going to continue in the days and weeks and months 
ahead.
    Here at home as well, there have been efforts to educate 
the public, but many of those have centered on the populations 
whose heritage is in West Africa. And in the areas of the 
country where those populations exist, State and local health 
departments have shown tremendous leadership in reaching out to 
those populations, helping them understand how to recognize and 
protect themselves here, and importantly helping them provide 
information for their families in West Africa, whether it's on 
the Internet, whether it's by Skype, whether it's by text, 
whatever. There is certainly much more public education and 
outreach to do, both in West Africa and likely here. But I 
really applaud your observation because it is centrally 
important to anything that we do in medicine or public health.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman. I know that my time has expired. 
But I would just like to say to my colleagues who are concerned 
about the czar, you know, it occurred to me that there are 
those of us who know things, but then there are those who know 
how to make things happen and how to get things done. And I 
think the President may have had that in mind as he made the 
appointment. I yield back.
    Mr. Chaffetz [presiding]. I thank the gentleman.
    I now recognize the gentleman from Kentucky, Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Lumpkin and Major General Lariviere, as you already 
know, there are members of Kentucky's Air National Guard in 
country. And so I hope you will understand that my first 
questions will be focused on their safety and training and 
well-being.
    But I need to ask Dr. Lurie a question first. Are you 
familiar with the treatment of the three patients in the United 
States, the treatment regimen that they have received? We heard 
in the press that they received ZMapp and also perhaps blood 
transfusions. Is that true?
    Dr. Lurie. So there have been more than three patients 
treated in the United States, but I have some familiarity with 
their treatment, yes.
    Mr. Massie. Right. So does it include blood transfusions 
and ZMapp?
    Dr. Lurie. So my understanding is that some patients 
certainly early on received ZMapp when it was available, and 
some of the patients have received blood transfusions.
    Mr. Massie. So the best minds that we have, the best 
doctors that we have in this country, their consensus was that 
that would be the best treatment for them.
    Major General, my question to you is can you assure us that 
the best treatment available in this country will be available 
to our soldiers in the unfortunate circumstance that any of 
them contracts Ebola?
    General Lariviere. Yes, sir, absolutely. As I Stated 
earlier, both--there will be a Role 2 hospital both in Monrovia 
and in Senegal, where your Kentucky National Guardsmen will be 
stationed that is there to exclusively take care of U.S. 
military personnel.
    Mr. Massie. And when they return Stateside, will they have 
access to ZMapp and blood transfusions if that's what the 
doctors prescribe?
    General Lariviere. Whatever the doctors prescribe, they 
will be--it will be available for them.
    Mr. Massie. OK. Thank you very much. Mr. Torbay, you seem 
to be sort of where the commonsense resides here, because you 
have been on the front fighting Ebola. And I really appreciate 
what you have done over there. And clearly, our futures are 
linked with West Africa. We want to see it solved. We want to 
see it cured over there. In some of the things that you have 
mentioned today about gradiating people into no risk, low risk, 
and high risk, and then treating them differently instead of a 
one size fits all makes a lot of sense to me. My question to 
you is, is it possible--not likely, but is it possible to 
contract Ebola by sitting next to somebody who is exhibiting 
symptoms on a bus?
    Mr. Torbay. Thank you for your question. First of all, for 
the record, I am not a doctor, so I cannot be very specific 
when it comes to that. From what we learned, unless there is 
contact with bodily fluid----
    Mr. Massie. Would that include perspiration?
    Mr. Torbay. That could include perspiration.
    Mr. Massie. And do you have to contact the skin or could 
you touch somewhere where that an Ebola victim has touched?
    Mr. Torbay. I can't answer that. My understanding is it has 
to be through broken skin, but I am not really sure about that.
    Mr. Massie. So do your protocols--but would you say it's 
possible even if it's not likely? Your protocols that you 
described before say that somebody who has a classification of 
low risk is prevented from taking public transportation. So 
surely you foresee that somebody--it is maybe not likely, but 
is it possible that somebody could catch Ebola on a bus?
    Mr. Torbay. We haven't experienced that. You know, with 
Ebola, it could be possible. There is no scientific evidence 
that proves it or proves against it.
    Mr. Massie. There is no scientific evidence that it can be 
transmitted through saliva, vomit, perspiration?
    Mr. Torbay. Saliva, vomit, perspiration, yes.
    Mr. Massie. OK. Does it live on surfaces? Can it live for 
more than 15 minutes on a surface?
    Mr. Torbay. I can't answer that.
    Mr. Massie. You can't answer that?
    Mr. Torbay. I do not know the answer to that.
    Mr. Massie. Maybe Dr. Lurie can. Can Ebola survive outside 
of a patient on an inert surface for any period of time?
    Dr. Lurie. It can survive on an inert surface for variable 
periods of time depending on the----
    Mr. Massie. OK. Then let me ask you is it possible--I am 
not asking you is it likely--is it possible that somebody could 
contract Ebola sitting on a bus next to somebody who has it? 
Can you imagine a way that could happen? Is it possible?
    Dr. Lurie. One would have to have been in contact with the 
body fluids of the person.
    Mr. Massie. Does that include perspiration?
    Dr. Lurie. It does include perspiration.
    Mr. Massie. OK. Major General, I want to get back to our 
soldiers here. You have assured us that they have been 
adequately trained in avoiding the contraction of Ebola. If a 
soldier came to you and said, Major General, is it possible, 
not likely, is it possible to contract Ebola sitting next to 
somebody on a bus who has it, what would your answer be to 
them? And I trust you are going to give us a straight answer.
    General Lariviere. So I would defer to the medical 
professionals, as the doctor just said. It can be transmitted 
through sweat. Bodily fluids has been noted. And I would say 
that, you know, that is why we have the 3 feet separation, that 
is why we don't shake hands.
    Mr. Massie. So if I am a soldier and I ask you that, sir, 
what would your answer be?
    General Lariviere. Well, I guess my answer would be it's a 
hypothetical.
    Mr. Massie. It could certainly happen.
    General Lariviere. It could possibly happen.
    Mr. Massie. I am asking you to answer a hypothetical then.
    General Lariviere. You are asking to ask me to answer a 
hypothetical.
    Mr. Massie. OK.
    General Lariviere. So it could possibly happen, but I would 
defer and say, low likelihood, and you need to follow the 
procedures that you were taught in your training session.
    Mr. Massie. I am hoping they are getting the best training 
possible. And I am concerned if they are being told they can't 
catch it on a bus. Can you tell me what your answer to the 
soldier would be if he said, Sir, can I contract Ebola?
    General Lariviere. So, for the record, they are not getting 
on buses with Liberian citizens. And your Kentucky Guardsmen 
are actually in Senegal, so----
    Mr. Massie. Understood. We have other members from Kentucky 
serving in the military.
    General Lariviere. Absolutely.
    Mr. Massie. They are going to be, as I understand it, hot 
zones.
    General Lariviere. And Fort Campbell folks will be there 
obviously. But they won't be betting on buses with Liberian 
personnel either. I would tell them to go ahead and follow 
their protocols.
    Mr. Massie. So, just quickly, our confidence has been 
shaken in the CDC because we get conflicting answers. And when 
I first heard the military was going overseas to combat Ebola, 
I was skeptical. But then, on second thought, I said that's 
where our competency in the government resides, where the 
confidence resides of the American public is with our military 
and their ability to focus on a mission.
    Today you have answered some questions where you deferred 
to CDC guidance, for instance whether they should be 
quarantined for 10 days in country or 21 days in country. What 
I am asking you, for the safety of the soldiers and for the 
safety of the public, is to use your own judgment. We trust the 
military actually more than the CDC on this. So please use that 
to guide you.
    General Lariviere. Absolutely. And that's why I reiterate 
that once they return, we are having not the self-monitoring, 
but we are actually exceeding CDC standards because we are the 
military and having those individuals monitored by their units 
once they are back.
    Mr. Massie. And the public, by the way, would like to see 
them stay on the base for the 21 days after they are back.
    General Lariviere. And I understand their concern. But 
again, this is--we think that it's prudent to have them checked 
twice a day on base, but be able to return to their loved ones 
in the evening.
    Mr. Massie. What we appreciate is your mission is and 
always has been to protect this country. And we appreciate your 
service.
    General Lariviere. Thank you.
    Chairman Issa [presiding]. I thank the gentleman.
    And we now go to the gentlelady from New Mexico.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    Clearly, with the arrival of Ebola in the United States we 
are all in this committee really concerned about whether or not 
our emergency preparedness systems are effective, and whether 
our public health system is an effective response mechanism. 
And I think I share with everyone on this committee that we are 
concerned that we have seen protocols have to be adjusted, that 
we wish we had better training, that we are concerned about 
hospital responses. I would just add, particularly after the 
last Statements, and I don't disagree that we want the highest 
standard of response, but a multitude of responses that are not 
based on scientific evidence and best practices. If they are 
not--if they aren't sound, then we create even more confusion 
and more panic by individuals, and we can't really manage a 
public health or an emergency system's response. Those are 
clear lessons that I learned as the secretary of health dealing 
with--I wasn't there to deal with hantavirus in New Mexico, but 
we had those experts certainly there. But I was there for SARS, 
for potential pandemics, for not having enough flu vaccine. And 
I am still there dealing with one of the worst hepatitis C 
issues in the United States. So, unfortunately, in New Mexico 
we know how important it is to have a good, solid, strong 
public health and emergency response system.
    To that end, I know that we have been both critical and we 
have recognized that whether or not Congress invests sufficient 
resources in the CDC and the NIH and all of our other partners 
that have a response to emergency preparedness, we expect that 
there is still in place a robust response. But I want to be 
clear that has the fact that these policymakers have failed 
Congress to invest appropriately and have cut funding, has that 
had a negative--Dr. Lurie, has that had a negative impact on 
our ability to respond not only to Ebola, but all public health 
crises?
    Dr. Lurie. No. I think that, you know, we have seen an 
erosion in support for public health at several times in our 
country's history. And each time that happens, we look back 
through the retrospectoscope and wish we had done something 
different.
    Ms. Lujan Grisham. So I am not sure I understand your 
answer. So you don't think that having reduced resources 
targeted at these issues has had any negative impact?
    Dr. Lurie. So we actually just had the opportunity to 
survey----
    Ms. Lujan Grisham. Because I will tell you that my public 
health team will say it is. My hospital association says it is. 
That individual hospitals around the country say it is. And the 
fact that you have a decentralized public health system--so 
even if you had the authority to mandate, you don't have a 
system that you could do a mandate. And I don't know that I 
agree, although I really respect my colleague, Mr. Connolly, 
that you want a mandate here, but we have another issue in this 
country, which is we do not have a centralized public health 
system. Your ability to manage State by State by State by 
State, and I have a poor State with a centralized system, 
fairly effective, but I can tell you even there, it was hard 
for us to manage all of our county emergency response partners 
in a crisis.
    Dr. Lurie. No, you are absolutely correct. And certainly we 
are hearing a lot from States that they are very concerned 
about the reductions in support for public health and for 
public health preparedness. And many of them are really looking 
hard at how they are going to have to cope with the latest 
rounds of reductions.
    Ms. Lujan Grisham. And are you prepared now to really think 
about best practices and more centralized approaches, and 
requiring maybe a different protocol for our public health 
emergency response systems in this country? I think if we did 
that even when Congress doesn't do its job to adequately fund 
for these public health issues so that we only react when there 
is a crisis instead of--and I appreciate someone talking about 
precautionary principles, that we ought to be proactive in as 
many cases as we can where the evidence is sound about being 
proactive in that particular manner. But, in fact, I do expect 
that the Federal Government, even with limited resources, does 
everything it can to identify what those best practices are and 
to regularly identify what the risks are if you don't 
adequately fund, and what the impact is to States who also find 
themselves without adequate resources to prepare and be trained 
effectively.
    Dr. Lurie. I so much appreciate your passion for public 
health and for the resourcing of public health. It's so 
important. The way public health is organized in this country 
by law is that the Federal Government by and large can provide 
guidance and tools and best practices, but the implementation 
of other aspects of public health is either at a State or local 
level. And as I think you know well, it's organized differently 
in different States.
    Ms. Lujan Grisham. That's my point. Is it may be time to 
think about whether or not that in and of itself is an 
effective strategy in this country.
    Dr. Lurie. I think it's a very interesting idea.
    Ms. Lujan Grisham. Thank you.
    I yield back.
    Chairman Issa. The gentlelady's time has expired. I thank 
the gentlelady. I now ask unanimous consent that page 172 of 
the CRS report entitled Funding of the HHS Assistant Secretary 
for Preparedness and Response in millions of dollars be placed 
in the record. Additionally ask--without objection.
    Chairman Issa. Additionally ask that the Wall Street 
Journal article in the opinion section, entitled ``There is 
Plenty of Money to Fight Ebola,'' be placed in the record.
    Without objection.
    Chairman Issa. Last, I would ask that the Fiscal Year 2014 
HHS appropriations overview by CRS be placed in the record at 
this time.
    Without objection, so ordered.
    Chairman Issa. We now go to the gentleman from Michigan, 
Mr. Bentivolio.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    And thank all of you for coming today and testifying before 
this committee on a very important subject. A great deal of 
importance to the people in my district.
    And Mr. Roth, a quick question. What is the Federal 
Government's present readiness status to handle a pandemic or 
other emergency where there is a surge in medical needs in a 
specific region?
    Mr. Roth. I can only speak to the DHS component, which is 
what we studied.
    Mr. Bentivolio. OK. Are you familiar with--do you have any 
idea how many mobile hospitals are in the inventory to be 
deployed at a reasonable amount of time, meaning 1 day to 3 
days, to a region that is experiencing a surge in medical 
needs? And that's for any reason whatsoever, another Katrina, 
HAZMAT emergency, pandemic, earthquake, tornado.
    Mr. Roth. We did not look at that in the audit that I 
testified about.
    Mr. Bentivolio. OK. In 14 months being in office, or since 
I have been in office for the last 14 months, my office has 
been investigating that need. So our first responsibility is to 
protect this country. And I haven't found any in the inventory. 
So there is no mobile hospitals available, no mobile isolation 
units deployable that could be deployed within hours or days of 
an emergency.
    And Ms. Burger, I have a question. You are a nurse. How 
long have you been a nurse?
    Ms. Burger. Forty-three years.
    Mr. Bentivolio. Forty-three years. My wife has been a nurse 
for 37 years. So thank you very much for your service. Now, I 
have a question. When a person has any type of infectious 
disease, whether it is Ebola or the flu, I know they are 
transmitted differently, but for each step that an infected 
person makes, does it or does it not increase the risk of its 
spreading exponentially?
    In other words, give you an example. If somebody came down 
with the flu, it's quite possible that, you know, well, if they 
stay in their home, the only people that are probably going to 
get sick or infected from that flu is those people that are in 
the home. But if any member of that household leaves that 
house, goes to the drug store, goes to the supermarket, 
whatever the case may be, does the potential to infect others 
increase?
    Ms. Burger. Well, if it's the flu, if you know you are----
    Mr. Bentivolio. Airborne.
    Ms. Burger. And they also have good hand washing, so if you 
are not in direct contact with the airborne virus going into 
your eyes by yourself putting your hands into your eyes or 
something, that is not likely.
    But what we are talking about here today is the Ebola 
preparedness in this country.
    Mr. Bentivolio. I understand.
    Ms. Burger. And it's completely different in this country 
because there are about 5,000 hospitals in this country and 
5,000 ways to manage this disease.
    Mr. Bentivolio. How many of those hospitals have an 
isolation unit that is capable of containing the Ebola virus?
    Ms. Burger. Well, according to what the hospitals report on 
a daily basis in the newspapers is that they are all ready and 
they can isolate patients at a moment's notice. But what we 
just got reported to us yesterday was a nurse that thought 
she--from Kansas City who has a, quote, negative pressure room 
which was nonoperable.
    Mr. Bentivolio. OK. That is one negative pressure room. It 
is very important, especially with Ebola, correct, to have that 
capability?
    Ms. Burger. Correct.
    Mr. Bentivolio. OK. Now, what I am trying to get at is if a 
patient walks in with flu-like symptoms, the first thing they 
will do when they go to a hospital is they will visit an 
administrative clerk that does some triage, asks some insurance 
questions. Is that not correct?
    Ms. Burger. Well, if they have got the flu, most of the 
time, they are at home in bed.
    Mr. Bentivolio. Well, OK. That's not always the case. They 
could be experiencing fever and they--you know, they do come to 
the emergency room.
    Ms. Burger. If they are seriously ill from----
    Mr. Bentivolio. If they are seriously ill with flu-like 
symptoms. So is it possible--what is the protection that an 
administrative clerk that meets you at the hospital, the 
receptionist that asks, you know, what are your symptoms, why 
are you here, what is your insurance? What is the chances of 
them being infected by an Ebola virus?
    Chairman Issa. The gentleman's time has expired. She can 
answer. But I just--you are not talking--you are saying flu-
like symptoms, but you are assuming that the person has Ebola?
    Mr. Bentivolio. Correct. Correct.
    Chairman Issa. The gentlelady can certainly answer.
    Ms. Burger. OK. Again, as I say, several, 5,000 hospitals 
all have different protocols on how they handle Ebola. Some 
security officers are now asked to step in. They are given 
little Ebola kits that have a gown, some gloves, and a surgical 
mask. But I think that that's what we are talking about is that 
everybody, everybody needs to be trained and prepared and 
educated on how to handle a potential Ebola patient so that 
that clerk is also not exposed to unnecessary virus from Ebola.
    Mr. Bentivolio. Thank you very much.
    Chairman Issa. I thank the gentleman.
    We now go to the other gentleman from Michigan, Mr. Amash.
    Mr. Amash. Thank you, Mr. Chairman, and thank you to this 
panel for being here today. Earlier this month several 
airlines, including Kenya Airways, British Airways, Air Cote 
D'Ivoire, and Nigeria's Arik Air, suspended flights to and from 
certain affected countries in West Africa. Our own State 
Department issued travel warnings to our citizens, urging them 
to delay nonessential travel to Liberia and Sierra Leone. And 
recent reports suggest that more than two dozen countries have 
restricted entrance to persons who have traveled to West 
Africa.
    So my question is to Dr. Lurie and to Mr. Torbay. Under 
what circumstances, if any, do you think a travel ban or 
increased travel restrictions would be appropriate to safeguard 
Americans?
    Dr. Lurie. So I thank you for that question. Over the past 
week, we have increased and tightened up our screening measures 
for individuals traveling from the three affected countries. 
You know they are all now being funneled through the five major 
airports. They get screened before they leave. They get 
screened when they come. Every passenger coming from an 
affected country now has their information given to the State 
and local health authorities. And they will be actively 
monitored for 21 days. So we have really tightened that up 
quite a bit, and I believe it should be sufficient.
    Mr. Amash. How about a travel ban? Is there any 
circumstances in which you would support a travel ban?
    Dr. Lurie. We think a travel ban would be incredibly 
unproductive or counterproductive.
    Mr. Amash. In what ways?
    Dr. Lurie. Well, first of all, right now, we have a really 
good mechanism to identify and track every single person coming 
now from affected countries. If you were to put a travel ban in 
effect, for example, you would have people coming into this 
country who we wouldn't know were here, we wouldn't even know 
how to find them or monitor them. And that would become a 
serious problem.
    Mr. Amash. But if someone is flying commercial, for 
example, and they don't exhibit symptoms, but they have been in 
a region that's infected, how are you going to know that they 
are infected? Or that they might have been infected?
    Dr. Lurie. I think the whole point of doing the exit 
screening and then the screening when they come to the United 
States, and then following them for 21 days, taking their 
temperature twice a day, is exactly so that we can see them 
through the end of the incubation period and, if necessary, be 
on top of that within hours of them exhibiting a fever.
    Mr. Amash. Mr. Torbay, same question.
    Would you support a travel ban under any circumstances?
    Mr. Torbay. No. We don't. A travel ban, first of all, we 
have to recognize there are no direct flights from those three 
West African countries to the U.S. The majority of people 
actually transit through Europe. So a travel ban will have to 
include flights coming from Europe, which I don't think would 
be feasible at this stage. But even with that, we can't, 
because if we are talking about fighting Ebola at its source, 
we need health professionals to be able to travel in and out of 
the country. We need supplies to be able to be flown into the 
country in order for us----
    Mr. Amash. Do they predominantly travel through commercial 
airlines?
    Mr. Torbay. Absolutely.
    Mr. Amash. Would it be prohibitive to require them to 
travel through charter jets?
    Mr. Torbay. It would be very expensive.
    Mr. Amash. The question, a followup question, you had said 
earlier and the doctor had said that if there is no symptoms, 
there is no risk to other people. What if someone were to get 
onto an airplane with no symptoms, but you have an 8-hour 
flight to the United States from a European country, let's say, 
and they have been in West Africa and then Europe to the United 
States. Couldn't they exhibit symptoms on the flight? And isn't 
that a risk?
    Dr. Lurie. I very much appreciate your question and 
concern. And I think that is exactly why now all of the planes 
are being routed through the five airports, and why by the time 
a plane lands on the ground, both Customs and Border Patrol and 
the CDC quarantine office are notified about whether there are 
any sick passengers on the plane. When they get off the plane, 
they are asked the same questions again, and they are given 
information about the symptoms of Ebola and what to do if they 
have any.
    Mr. Amash. Thanks.
    I am going to yield my remaining time to the gentleman from 
Florida, Mr. Mica.
    Mr. Mica. Thank you.
    First of all, what you have got in place has failed. The 
doctor, the New York doctor just came through, and he got the 
temperature thing and all of that. But it failed. He self-
reported. I think basically what you have is a 21-day period 
from where they have been subject to the infection, and people 
need to be quarantined coming out of those countries. You don't 
need a travel ban. You need to go to the people who pose a 
risk.
    I understand it is only 80 to 150 coming out of those 
countries right now entering the United States a week. Is that 
right? Approximate? That's what I am told. But you quarantine 
them. My grandparents, when they came into Ellis Island, were 
subject to quarantine. We quarantine lots of people. I will 
take you up to where we did it. Or they self-quarantine 
themselves. They pose a risk. Every traveler doesn't. But 
people need to be identified.
    We just came through the airport today at Dulles. And, 
again, we didn't come from one of those countries, but we 
didn't have to. You just said transited. They can transit.
    Chairman Issa. The gentleman's yielded time has expired. If 
you could wrap it up.
    Mr. Mica. Well, again, just some common sense that doesn't 
prevail around here or anywheres. You have 21 days. Look at 
this guy again. Learn by his example. He flew out, the 12th was 
his last day there. You count 21 days forward. So he should 
have been subject to quarantine, not exposing himself on the 
subway or other places. Then your guidance finally on----
    Chairman Issa. I will do a second round. I will come back.
    Mr. Mica. Let me just finish because others went over.
    Chairman Issa. I ask unanimous consent the gentleman have 
an additional minute.
    Mr. Mica. OK. Just an additional minute. Here is a picture. 
I don't know if it's true. It's New York. Your workers and how 
you spread this stuff. The nurses, it was either taking this 
their things off or exposure to the skin. We don't know.
    Do you know, Ms. Burger? No.
    We don't know. OK. Here is a picture I saw. My wife told me 
about this. She saw it on TV. These are New York police first 
responders. Do you have a memo to first responders on how to 
deal with this stuff?
    Dr. Lurie. We do. We put out guidance for first responders. 
We had a----
    Mr. Mica. This is a press account. Just a video. I don't 
know if it is true. But it shows them putting their gloves and 
other stuff and tape from the area of New York into a public 
trash can. So, again, what you have got to do, you have got to 
make sure first responders, nurses, all the protective things 
in place where we have exposure. And we have exposure.
    And the testing at the airport is not working. We need a 
quarantine in place period for those coming out there or you 
are not going to stop this. The doctor was a very responsible, 
educated individual. Thank you.
    Chairman Issa. I thank the gentleman.
    I ask unanimous consent the ranking member have 1 minute. 
Without objection.
    Mr. Cummings. Thank you. Mr. Torbay, the quarantine. Can 
you talk about that? I know you are interested in what is 
happening in Africa, but I know you are also interested in what 
is happening here. Can you just comment on that?
    Mr. Torbay. You know, as I mentioned, one of the main 
pillars for actually fighting Ebola in West Africa is the 
ability to take staff and bring them back home. We cannot 
recruit staff from the U.S. or anywhere else in the world if 
there is a chance that they might not be able to come back home 
to their families and to their duties, to their other duties.
    And putting people in quarantine actually goes against our 
ability to recruit and to retain. And therefore, it will go 
against our ability to fight the virus in West Africa.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Florida for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Dr. Lurie, as I understand it, Congress in 2006 passed the 
Pandemic All Hazards Preparedness Act. We reviewed that and 
reauthorized it in this Congress. And one of the key points in 
that was establishing an Assistant Secretary for Preparedness 
and Response, which is of course you. And this was supposed to 
be the focal point for these responses. You were quoted 
previously as saying that you have responsibility for getting 
the Nation prepared for public health emergencies, whether 
naturally occurring disasters or manmade, as well as for 
helping it respond and recover. It is a pretty significant 
undertaking, end quote.
    And it just occurs to me I am glad to see you here, but I 
have not seen you out front. I know communications is supposed 
to be part of what you do. So have you been appearing at public 
meetings over the last several weeks in conjunction with Ebola? 
Have you been participating in any briefings for the public?
    Dr. Lurie. So let me start by saying and repeating 
something I said in my testimony, that back in the spring, when 
we first learned about Ebola in West Africa, our whole office 
activated to start taking action on behalf of the country and 
on behalf of West Africa----
    Mr. DeSantis. I appreciate that. But can you speak since 
this has become heightened with the American people in the last 
3 or 4 weeks, it seems like your profile has been a lot lower 
than some of the other folks even though your office is a key 
one. So how would you respond to that?
    Dr. Lurie. So I think one of the things we know about 
dealing with public health emergencies is the public does 
better if there are one or two consistent spokespeople. Dr. 
Frieden has played the major role in that because the CDC has 
the lead for the public health aspects of the response. What I 
can tell you is----
    Mr. DeSantis. What would you say about this? I appreciate 
that. Let me ask you this. The President had what were billed 
in the press as emergency Ebola meetings at the White House. 
One last Friday and then a week ago tomorrow on Saturday, after 
I guess he played a round of golf. Did you attend either of 
those meetings?
    Dr. Lurie. Our Secretary attended those meetings. And I 
have met with her every single day since we got involved in 
this response.
    Mr. DeSantis. Did you attend?
    Dr. Lurie. No, I did not.
    Mr. DeSantis. OK. And so has the White House or the 
Secretary of HHS instructed your office to stand down as being 
the point office in favor of this new Ebola czar?
    Dr. Lurie. Not at all.
    Mr. DeSantis. OK. So here is an issue. Thomas Eric Duncan, 
he brought Ebola to the U.S. Your office is clearly what was 
envisioned in this legislation. And yet he was able to bring 
the disease here. So what would you--were you guys prepared in 
your office for Thomas Eric Duncan, or did you drop the ball, 
and could you have done some things better?
    Dr. Lurie. So what happened with Mr. Duncan required a 
whole system to work, right? It required the Federal components 
to be in place. It required State and local health departments 
to be in place. It required hospitals to be in place. And it 
required individual health providers, doctors or nurses, all to 
be able to do their job.
    Certainly there were some breakdowns in links in the chain. 
Do I think that we have done a good job preparing hospitals and 
the health care system in our country for disasters? Yes, I do. 
Do I think we are being very aggressive now about preparing 
health professionals and health care providers and institutions 
to be able to recognize, treat, and isolate cases of Ebola? I 
think we are being very, very aggressive about that.
    Mr. DeSantis. So how would you--explain to me then, so the 
Pandemic Act seemed to have your office being kind of a point 
person in HHS. Now we have this Ebola czar. So how does the 
chain of command work in terms of how we are confronting Ebola 
at this stage? Is the HHS assets, is everyone reporting to Ron 
Klain now and then Klain is directly reporting to the 
President? What is your understanding of this?
    Dr. Lurie. So Mr. Klain's role and responsibility is to 
coordinate all the different aspects so that we are 
increasingly working in a whole of government response. It's to 
make sure that all the parties are working together on a day-
to-day basis to make decisions.
    Mr. DeSantis. Isn't that in your job description anyways? I 
mean aren't you kind of a czar to deal with these pandemics?
    Dr. Lurie. So I have responsibility for dealing with 
medical and public health emergencies, particularly 
domestically. And the other thing that I think is really 
important to recognize is that the bulk of this response is a 
global health response. It's not a domestic response. My office 
has been active, along with the CDC, the NIH, the FDA, in 
meeting with the Secretary since the beginning of this, as I 
said, almost every day.
    Mr. DeSantis. Well, I appreciate that. I know that the 
chairman invited Mr. Klain here. I wish he would have come so 
we can ask--some people, as Mr. Gowdy pointed out, may have 
some reason to question whether this is the right individual to 
actually execute the medical component of this, or whether this 
is more for political reasons. I would have liked to have been 
able to ask him some questions to try to probe that further.
    Chairman Issa. Would the gentleman yield?
    Mr. DeSantis. Yes.
    Chairman Issa. For the record, we did invite him. We had 
hoped he would be here.
    We also invited the World Health Organization 
representative. And as you know, we fund about half of their 
entire budget.
    And their answer to us was that basically they don't do 
congressional hearings. So I am sending a letter to the 
appropriators, letting them know they don't do congressional 
hearings about how they are spending our money and how they are 
going to fight something like this.
    But it is an area of concern. As you say, you have got an 
attorney who has been hired to do this as a czar, you have the 
World Health Organization, and neither wanted to appear.
    I yield back.
    We now go to the gentleman from Georgia for 5 minutes, Mr. 
Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    I appreciate you each being here and the sense. And there 
is a lot that has concerned me from this hearing. Actually, I 
came into this hearing hoping--in some ways, we got some 
assurance, but in also other ways very concerned about some of 
the answers that were given. And I may get to that in a moment.
    But I want to focus on--being from Georgia, I want to focus 
on a positive note. And I want to focus on something that was 
really--because back when Dr. Brantly and Ms. Writebol, which 
seems like an eternity ago now, were brought to the United 
States, they came to the--really, the constituents, my 
constituents started feeling fear. A lot of people were 
concerned this is something that we don't understand and how 
you get it. And then in the weeks and days after that, the 
conflicting and inaccurate public Statements that followed the 
arrival from CDC, others, and as it just went ahead have caused 
even more panic. In fact, today in one of my local press 
outlets there is a--basically just an opinion poll that people 
can click in--and said 75 percent believe that the CDC's 
information from the beginning of this was just inaccurate and 
not helpful. You have a level of trust that is gone with many 
people. But what happened here was really time to switch gears 
and say that, frankly, from my perspective Georgia got it 
right. Emory got it right. Nebraska has got it right. There are 
some places that have got it right. And what I want to know is 
as we continue this process, as we look at the precautions, as 
we look at the things that are going on, is focus on the 
protocols for Ms. Burger and the nurses and the folks who come 
into the very front stages of this, they do it in a way that 
they follow protocol, they have the protocols in place and have 
the equipment in place. And I think this is what I want to 
commend Emory University in Atlanta for being able to be the 
first hospital to successfully treat an Ebola patient. And 
actually the fourth, Amber Vinson, is our understanding is 
still recovering at Emory and has been declared Ebola free. 
That is a good thing.
    Emory did this because they were set up with the CDC on 
those levels that we heard about your, Dr. Lurie, on the table 
tops. They worked with CDC. They are one of those outlets in 
case something happened, which the CDC is in Georgia as well, 
most of which I am so proud of, except some of the public 
Statements by the director, who has really lost confidence of 
many on this Hill and many in the country by the Statements 
that were made and the actions that he took. For him to be the 
face is really a concern of this.
    So the question I have is in looking at this, Emory has put 
out a lot of great stuff. And, with unanimous consent, Mr. 
Chairman, I would like to add the editorial from John Fox, who 
is the president and chief executive officer of Emory Health 
Care, Beating Ebola Through a National Plan.
    Chairman Issa. Without objection, the entire article will 
be placed in the record.
    Mr. Collins. And I do appreciate that, because I think this 
is a national response. You said something just a moment ago, 
Dr. Lurie, that I am not going to focus on, but you said this 
was not a domestic, this was a global issue. Well, aren't we 
part of global? So what part would you be missing in 
understanding of how that would affect us? In fact, when your 
main concern was if it was something overseas, when we have 
places like Emory and Nebraska doing it right, we have those 
doing the protocols that were not forced upon them, they had it 
ready to go, was it not--shouldn't it not have been a part of 
your job?
    Dr. Lurie. Maybe you misunderstood what I was trying to 
convey. What I was trying convey is----
    Mr. Collins. Very quickly enlighten me.
    Dr. Lurie. OK. So I have domestic responsibilities for 
preparedness. In fact, one of the things that I was reflecting 
on when I was listening to your comments is that, prior to 
taking this job, I had an opportunity to go around to every 
county in Georgia with your Georgia public health officials and 
do those table top exercises for biopreparedness. I spoke to 
the leadership at Emory yesterday. And we are very grateful for 
their incredible response and their leadership, not only in 
taking care of patients at Emory but now helping us and helping 
the rest of the country as we build out and develop a regional 
strategy for taking care of----
    Mr. Collins. I appreciate that. Because I do want to be--at 
least let's accentuate the positive, health care workers that 
are getting it right. But I share Ms. Burger's concern, and 
there was some other discussions lately, is let's say they did 
switch planes. There is not a tracking. They don't fly into one 
of the five airports. They come in in different ways and then 
present at an emergency room, which by the way in my area, a 
lot of times poor areas, they do go to the emergency room with 
flu-like symptoms all the time. All the time. It is part of the 
problem we have got. And it is going to get worse. So the 
people who do ask those questions, having them trained and 
having them adequately prepared. And I think this is the part 
that concerns me.
    You made this Statement, and I just want to end here 
because there is the concern out there is for the people to 
understand what is done right. Emory University, Nebraska, and 
those kind of things that have done what it took to follow 
protocols and be prepared. That is the No. 1.
    From the CDC level and the spokesman level, there has been 
a disastrous failure at that. There has been now with Mr. Klain 
a disastrous failure in at least perception that we are taking 
this health care seriously, not just an administrative 
assistant. We needed someone else that has the credentials that 
you have or others.
    But here is my problem. After we discussed everything on 
when they actually got here, the doctor in New York, which I 
was in New York, just came back last night and came this 
morning, up there seeing what is going on. Here is your 
response. And it is the response that the American people 
cannot hear anymore. And that is after it happened, out of an 
abundance of caution, we cleaned the bowling alley. Out of an 
abundance of caution, we went back. The American people need to 
see the abundance of caution beforehand. That is your job. That 
is the job of the CDC and the job of preparedness. And they 
wanted to see the abundance of caution before our health care 
workers were put at risk, before our system was bun, and that 
is where the abundance of caution needed to come. And from 
that, from a very positive Statements from Emory University and 
Nebraska and others who did it right, and I want to 
congratulate them, I want to also highlight that an abundance 
of caution should have started a while back, not after the 
fact.
    And with that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Florida, Mr. Mica.
    Mr. Mica. Well, a perfect lead in. Now, you sat here and 
told us you are responsible for both domestic preparedness and 
a global response.
    Dr. Lurie. No.
    Mr. Mica. What are you doing?
    Dr. Lurie. No, my responsibility is a domestic 
responsibility primarily.
    Mr. Mica. OK. So you have nothing to do with the global 
response? More from this article about WHO, who wouldn't come 
here today. First of all, this is the worst Ebola outbreak in 
history. Is that right? Is that not right?
    Mr. Torbay. Yes.
    Mr. Mica. OK. And it says the World Health Organization 
said today it would probe complaints that it had been too slow 
to wake up the scale of Ebola. Then it says critics have 
questioned why WHO only declared an international health 
emergency in August, 8 months after the epidemic began. Did the 
administration or anyone in a position of authority from the 
United States, where we spend millions of dollars into WHO, ask 
them to proceed?
    Dr. Lurie. So let me----
    Mr. Mica. Did they?
    Dr. Lurie. Let me put a finer point on this.
    Mr. Mica. Do you know if they did? You can say you don't 
know.
    Dr. Lurie. So I don't know if they did what?
    Mr. Mica. If we did anything. Is there a letter? Anything? 
Did we go after WHO? This is a global----
    Dr. Lurie. We have been----
    Mr. Mica [continuing]. Disaster. We spend lots of money on 
the World Health Organization. And this isn't my stuff. I am 
just reading you what I am telling you that people are coming 
after.
    OK. This isn't a panic. It is to be prepared. Now, are you 
in charge of being prepared?
    Dr. Lurie. I am in charge of being prepared.
    Mr. Mica. OK. Then I think you need to turn your 
resignation in. Have you read this report? Have you read this 
report about preparedness that the IG? Do you have some 
authority over preparedness at DHS?
    Dr. Lurie. I have no authority over preparedness at DHS.
    Dr. Lurie. Then you don't have the authority to do the job. 
Who has the authority to do the job? He has just prepared for 
this committee; it is dated the 24th. He says the stuff they 
bought, nobody knows even the inventory where it's gone. You 
have got equipment to protect people that is out of date; it 
won't protect them. They even put up hand sanitizer, they 
looked at 84 percent of them are expired. Is that your job or 
somebody else?
    Dr. Lurie. DHS----
    Mr. Mica. And if it isn't your job, isn't it the new czar's 
job? Whose job is it to protect the American people?
    Dr. Lurie. First, let me clarify that DHS has 
responsibility to buy personal protective equipment for its----
    Mr. Mica. Have you been over there to see what they have? 
Have you been over there to see what they are doing and have? 
Have you seen this report? Folks, staff, make sure she gets a 
copy of this report. This is a scathing report. Page after 
page, the inventory outdated, stuff that we bought, we spent 
millions of dollars, and we aren't prepared.
    Let me ask you another question. Having been here a while, 
I was through the bird flu. This is transmitted even by an 
individual. And if it takes inconvenience--first of all, you 
should quarantine the health care workers.
    You are wrong, Mr. Torbay. They are the most exposed to 
this. So anyone who has been exposed, for 21 days coming into 
the United States, must be quarantined. I don't care if it's 
inconvenient. They should recognize their own risks, too. And 
we should watch those people. You had one guy come in 
yesterday. He got to his what, 18th day or something, came down 
with it. OK. So I think--and it may not be that many health 
care workers. But they are the most exposed, unless you are 
burying the people like you just saw with the photo from him. 
If you are burying people or you are in the medical, you 
quarantine those people for their own risk, even if we pay for 
it, to keep this thing from spreading.
    Right now we are lucky. OK. We don't know what infected the 
nurses. We don't know, again, if there will be other cases. But 
you have to take steps in an emergency situation like this.
    She claims she doesn't have the authority to see what DHS 
has to keep us prepared. Somebody needs to see that we are 
prepared. Again, this isn't panic.
    Last question. OK. Bird flu. I was involved in bird flu. 
These people are coming by planes. When some plane comes from 
Africa or transit through and it has passengers from there, 
what are we doing with it? The plane.
    Dr. Lurie. With the plane itself?
    Mr. Mica. Yes, the plane. They have been on the plane. They 
might have barfed in the plane. There might be excrement. There 
may be vomit. There may be a body fluid. They sat in a seat. We 
don't know. We don't know if those nurses got it from taking 
off equipment incorrectly or if it touched their skin.
    Dr. Lurie. There are protocols for cleaning the plane.
    Mr. Mica. You just testified earlier that perspiration 
would do it.
    Dr. Lurie. There are protocols for cleaning the plane.
    Mr. Mica. I want to know the protocols they have in place. 
I have seen the equipment that we have, and Centers for Disease 
Control actually got some then. And we could bring up--it is a 
heating device that heats the plane to 140 degrees to kill the 
germs. That is what we used in the bird flu. Are we doing 
anything like that to make sure those planes aren't little 
Ebola transporters?
    Dr. Lurie. Mr. Mica, you sound upset. And I am sorry for 
that.
    Mr. Mica. I am not upset. I am a happy boy.
    Dr. Lurie. We will make sure that you get the protocols for 
cleaning the plane.
    Mr. Mica. But I am not happy with, again, you told me you 
are responsible for preparedness. Now, if that is not your 
responsibility, is it the new guy's--does he have the ability 
to go in and make certain that we are prepared? It hasn't hit 
here yet. But what you want to do is be prepared. The Boy 
Scouts marching song. Be prepared. We spent millions of 
dollars, and this inspector general of the United States of 
America has gone in at our request and looked at what one 
agency is doing to be prepared, and it is a scathing report we 
are not prepared.
    So you go back to the other guy who didn't show up today, 
the new czar. We want to work with you. We don't want the 
American people at risk. We have already been through this, as 
I said, with bird flu. Are those planes being properly 
sterilized? Because this can spread. OK? It hasn't spread. We 
aren't at risk right now. And then the protocols. You give to 
the committee and put in the record----
    Chairman Issa. The gentleman's time has expired.
    Mr. Mica. I want to see the first responders' direction. 
Then I will put these pictures of the videos from New York 
disposing of the gloves and the masks.
    Chairman Issa. Without objection, they will be placed in 
the record.
    Mr. Mica. Thank you.
    Dr. Lurie. We would be happy to get you those protocols and 
the protocol for cleaning the plane. And I very much look 
forward to working with you and other Members of Congress as we 
move forward with this.
    Mr. Mica. Thank you.
    Chairman Issa. Thank you.
    Mr. Mica. I have a plane to catch.
    Chairman Issa. I thank you. And have a safe flight. It will 
be about your 12th in 4 days.
    I am not going to ask a second round of questioning. But I 
do want to ask just one question, and then we will go to Mr. 
Cummings for his close.
    There was a Statement made just it seems like an eternity 
ago, but about maybe 15 minutes ago, about following people for 
21 days after they land.
    Dr. Lurie, currently there is no visa restriction or law 
that gives you specific authority. Do you believe you have the 
authority under existing public health laws to force followup 
daily temperature checks and the like? Let's just assume for a 
moment we take the gentleman from Florida's analysis that a 
plane comes in, a person tests--let's just say elevated 
temperature for a moment--they test positive later or not, for 
the other people on the plane, do you have the authority then 
to compel them to go to be tested, or is it just hope for the 
best that they will recognize a high temperature and report it?
    Dr. Lurie. No, I believe that we have the authorities that 
we need. But you know, we are constantly looking at and 
updating our policies based on the situation at the time. And 
so we will continue to look and be sure we have the authorities 
that we need.
    Chairman Issa. OK. In addition to asking for those 
protocols, which you have already said you are willing to give 
us, I am going to direct the committee to, in fact, ask 
questions of you and other areas and, of course, our new czar 
as to specific authorities you may have that would support 
requiring people. There has been a lot of discussion about 
restrictions on people's travel.
    And I agree, quite frankly, with many of the people here 
that it sounds like a great idea; it's a great sound bite, but 
then when you actually try to figure out how you would stop 
somebody from leaving Sierra Leone, going to Paris, spending a 
day there and then booking a flight here, the practical reality 
could well be that it would be circumvented.
    However, the question of a planeload of people coming in--
and I came in today into Washington, DC, I came in with a 
Marine major. I came in with a Marine major who has a cold and 
who has many of the symptoms. And he did not go through a 
check. They are not doing temperatures. If he later reports, 
the whole question from a public health standpoint of, are we 
prepared to locate and to mandate surveillance on people so 
that after the fact, we can accurately do a containment is one 
that I am directing the committee to ask a series of questions.
    And Doctor, your organization obviously would be a part of 
it.
    Dr. Lurie. We would be happy to. Would you give me a 
moment, since you talked about the guy with a cold, to do a 
quick educational sound bite?
    Chairman Issa. This will be your closing Statement, Doctor.
    Dr. Lurie. Sure. Anybody who has a fever or flu-like 
symptoms during this season ought to be asked to provide a 
travel history, to look at whether they have been out of the 
United States in the past 21 days, and whether they have been 
in one of the affected countries.
    Chairman Issa. I couldn't agree with you more. And if I get 
a fever, having been in Iraq, Kuwait, Saudi Arabia, UAE, and, 
well, additional places, meeting with people, many of whom have 
traveled to Africa recently, I will be the first to rush to the 
hospital to report.
    With that, we go to the gentleman from Maryland, Mr. 
Cummings.
    Dr. Lurie. We will take care of you.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    First of all, I want to thank all of our witnesses for 
being here today. And I must tell you that I can understand the 
emotion of the American people. When there is an issue of life 
and death, and when you have people who put their lives on the 
line to take care of the sick, not knowing whether they will 
become sick themselves, that's serious business. When you have 
our military going across the sea to try to make a difference, 
as I always say, change the trajectory of somebody's destiny, 
and the idea that they may come back with a disease that could 
possibly kill them, that's serious business.
    So, you know, as I listen to you, Mr. Lumpkin, you, Major 
General, I have absolutely no doubt that you will do everything 
in your power to protect our military. I have no doubt about 
that. And I think that if you find that as you go through the 
procedures that you have in place, if you feel those procedures 
need to be changed or even tweaked so as you might be more 
effective and efficient in that goal, you will do that. Is that 
correct?
    Mr. Lumpkin. That is correct.
    Mr. Cummings. And you, Dr. Lurie, I want to thank you for 
what you are doing.
    And one of the things I guess that really concerned me, you 
know, when I looked at all, Dr. Lurie, and I saw all those 
health workers, nurses I guess it was, and then I see Ms. 
Burger sitting next to you, and then I hear about people not 
being not trained in the hospitals, I think it would be almost 
legislative malpractice for me not to ask the question--and it 
may have been asked before when I was out of the room--how do 
we make sure that those folks receive the training? They are 
not just running around saying--just complaining to be 
complaining. They want to be the best. They don't mind--they 
don't mind putting their lives in danger. But they want to know 
that everything possible to make sure that they are safe, they 
want to make sure those things are in place. And I am so glad 
that Ms. Pham, Nurse Pham, has been found to be Ebola free now. 
But how do we make sure that they know that?
    And Ms. Burger talked about an Executive order, and then 
the chairman was asking you about, Dr. Lurie, whether you had 
all the things you need to be able do what you need to do. I 
just got to ask you when you listen to Ms. Burger--and Ms. 
Burger, I watched you on television. I know your passion. No, I 
am serious. I feel it. It's contagious. And it is strong. And I 
know you care about the people that you represent. No doubt 
about it.
    So how do we do that, Dr. Lurie? Help me.
    Dr. Lurie. Sure. First, let me say, Ms. Burger and I, and 
probably every nurse in America share the same goal, to keep 
them safe, to be sure that they are trained, to be sure that if 
they are front line providers that they have the education, the 
knowledge, the adequate PPE, the training, and the exercises to 
stay safe. So I can tell you a little bit about what we have 
been doing. We have been reaching through the top--we have got 
a very comprehensive now national education program going on. 
We have reached through the top for all the hospital 
associations, through all the hospitals, through the nursing 
associations. I was on the phone with 10,000 nurses the other 
night. And there were more that wanted to get on the phone. And 
we have said to them all, Please, if you are a hospital, 
conduct a medical and a nursing grand rounds. Do first patient 
training--do first patient drills and exercises. Make sure that 
your nurses are trained and your front line nurses have to 
practice putting on PPE to proficiency. OK. Have policies, 
plans, and protocols in place, and drill and exercise them.
    We have said to the nurses and other front line health 
professionals, Here is the guidance. Please be sure that the 
checklists and other things are posted in your places of front 
line care. Please ask your hospitals and your administrators to 
be sure there are plans, practices, and policies in place, and 
that you have the PPE required to do your job.
    We have said to State and local health departments, We 
would like you to call every hospital in your jurisdiction, 
find out if they put those plans in place, find out if those 
exercises are in place, find out if that PPE is in place, and 
report back to us.
    And we will continue to be reaching out with material, with 
training, with education opportunities until we have got this 
done.
    Mr. Cummings. Ms. Burger, this is your moment. This is your 
moment. Dr. Lurie just talked about--I hope you don't mind, Mr. 
Chairman, this is important.
    Chairman Issa. Not at all.
    Mr. Cummings. Dr. Lurie just talked about what they are 
going to do and what they are doing. Those ladies that were 
behind you today, they want to know--some of them left now--but 
they want to know that they are going to be protected. Now, you 
heard what she just said. Can you just react? Maybe you might 
want to give her some advice as to what you all--and I am not 
trying to be smart, I am serious. This is a critical moment. Go 
ahead.
    Ms. Burger. The nurses that were here have legislative 
visits. They are getting fully engaged in this hearing, and 
they appreciate the opportunity to be here. But--and what I 
would like to say is that until the CDC guidelines and training 
and education and personal protective gear at an optimal level 
are mandatory, no matter how good the guidelines are, no matter 
how good the intentions are, we need to ask Congress to step up 
and do what is right for the United States of America and its 
citizens by making sure the frontline caregivers have mandatory 
optimal standards for protective gear and training and 
education.
    Mr. Cummings. So there is a gap, Dr. Lurie. Am I right? 
Based upon what she just said--in other words, you may be 
saying all these things, but then it's a whole other thing for 
the hospitals to provide the things that you tell them they 
need to go and get. Am I right?
    Dr. Lurie. I think Ms. Burger and I share the same goal, 
and I share the same goal, as I said, with most nurses and 
nursing organizations around the country, and look forward to 
working with them and moving forward so that we can be sure 
that nurses across this country, who put themselves on the line 
of fire every single day with other front line health care 
providers, are safe.
    Mr. Cummings. As I close, I just want to thank you, Mr. 
Torbay, for your testimony.
    And I want to say to all of us, it goes back to we have to 
address the issue here in America. No doubt about it. But we 
also have to go back to the source. We have got to do that.
    And I think, Mr. Torbay, your testimony about some basic 
things that are needed, such as food, vehicles, fuel, staff, 
supplies, resources, things that can be--that will allow us to 
try to stop this in Africa so that it does not continue to come 
to our shores is so very, very important. And I just hope that 
the Congress is listening to you. And I realize that there 
are--we need more international partners--I think that's what 
you just told us--people coming in and helping this. Because 
this does not just affect Africa or the United States, it 
affects the world. And so I don't know how we convince folks 
to--that is other countries to do more to get up to that $988 
million figure, but we have got to figure out a way to do that. 
Would you agree? Then I will close. I will close.
    Mr. Torbay. Absolutely. I fully agree with you.
    I think the whole world needs to realize that we are all in 
this fight together and the resources need to be available 
until we get this virus under control.
    And, at the same time, I would like to thank the committee 
for its leadership on this issue as well as the U.S. Government 
and its agencies for taking the lead and responding to the 
Ebola crisis. They have been doing a tremendous job, and we are 
very proud to be part of it.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. Thank you. I want to thank all of our 
witnesses here today.
    In closing, I am going to make a comparison. And I think it 
is an important comparison for the American people to put it in 
perspective.
    As was alluded to earlier, I just came back from what has 
become a theater of operation in Iraq where ISIS now, like an 
ugly, resilient virus or infection, has shown up again and 
Islamic terrorism is murdering people far away.
    While I was there, there was a murder in Canada. And around 
the globe, small, but significant, events occur in which we 
realize that terrorism does not stay in the country that we 
think it begins in or is predominantly in.
    In the war on terror, we rely on the Department of Defense 
and our U.S. military as our primary way to eliminate that--
those actors in faraway places, like Iraq, Afghanistan, and 
Syria.
    We also rely on the Department of Homeland Security to deal 
with a comparatively small risk, small event, here in the 
United States, whether it is 9/11, which was horrific, or--and 
led to its founding, or the occasional lone actor or small 
group that try to conduct terrorism here in the United States.
    It is that teaming of the large effort at the source and, 
in fact, an equally important effort at home for the relatively 
isolated cases that come through that seem to be so close to 
the problem we are facing with Ebola.
    Ebola is, in fact, a disease that has periodically reared 
its ugly head for more than three decades. It will, in fact, 
until there is a cure, rear its head again. Like many diseases 
in which a virus, eventually we find a cure. That cure is only 
good if everyone takes it.
    The idea that we are going to find a shot in a country--in 
a continent of a billion people living mostly in poverty means 
that, even when we find it, it may, in fact, be there for 
generations, and like smallpox, tuberculosis, and others, they 
never seem to be completely gone.
    Our effort and the effort that all of you articulated very 
well today has to be, first of all, in Africa, at the source. 
There World Health Organizations, USAID and, once again, the 
United States military have and are taking up the fight against 
this dreaded disease.
    Mr. Roth, your testimony and the testimony that I believe 
we will have following this that the Department of Homeland 
Security has an obligation, a unique obligation, one in which 
they were formed to deal with things which threaten the home 
front, Ebola and particularly the movement of people who may be 
infected fall squarely within their jurisdiction, and they seem 
to have not been prepared.
    So, as we conclude here today, it is my view that we will 
be doing both public and nonpublic investigation in the weeks 
and months to follow, looking for transparency--and, Dr. Lurie, 
you said this very well--transparency to the American people. 
What we tell nurses and doctors and healthcare professionals we 
need to tell the public.
    Because unlike some things where the first responder is, in 
fact, the greatest threat, the first responder with Ebola is 
not the first to come in contact with the infected individual.
    Almost in every case there will be a cab driver, a bus 
driver, family, friends, and others who will already have had 
an unprotected contact by the time a first responder is aware 
that there may be a problem. By the time that person suits up, 
he or she already will, in fact, be exposed.
    So as we begin looking at the protocols, I think we have to 
understand one thing: There is no perfect solution. There is no 
way that every American is going to place themselves in a 
HazMat suit from morning until night.
    To deal with this disease, we will have to go to its 
source. We will have to work together with our partners around 
the world to eradicate it in Africa, because, ultimately, like 
terrorism has been to the American people for more than a 
decade, this disease will not, in fact, be eradicated if we 
wait until it comes to our shore.
    So I thank you. I believe this was a worthwhile hearing.
    I thank Mr. Cummings and the tremendous turnout of members 
who came back on the eve of their elections for this important 
hearing.
    And, with that, we stand adjourned.
    [Whereupon, at 1:34 p.m., the committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
           
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
